<html>
<title> - PPACA IMPLEMENTATION FAILURES: WHAT'S NEXT?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







              PPACA IMPLEMENTATION FAILURES: WHAT'S NEXT?

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2013

                               __________

                           Serial No. 113-108





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-657 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               JOHN D. DINGELL, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          JIM MATHESON, Utah
PHIL GINGREY, Georgia                GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            JOHN BARROW, Georgia
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
H. MORGAN GRIFFITH, Virginia         KATHY CASTOR, Florida
GUS M. BILIRAKIS, Florida            JOHN P. SARBANES, Maryland
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)



















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     2
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     3
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     7

                               Witnesses

Kathleen Sebelius, Secretary, Department of Health & Human 
  Services.......................................................     8
    Prepared statement...........................................    11
    Answers to submitted questions...............................    67

                           Submitted Material

Letter of November 18, 2013, from Anthony Weil to Courier News, 
  submitted by Mr. Pallone.......................................     6
Two redacted letters, submitted by Ms. Schakowsky................    40
Letter of December 1, 2013, from Julie Welch to President Obama, 
  submitted by Mr. Pitts.........................................    60
Letter of October 29, 2013, from Gary Lauer, Chairman and CEO, 
  eHealth, to President Obama, submitted by Mr. Burgess..........    65

 
              PPACA IMPLEMENTATION FAILURES: WHAT'S NEXT?

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Members present: Representatives Pitts, Burgess, Whitfield, 
Shimkus, Rogers, Murphy, Blackburn, Gingrey, Lance, Cassidy, 
Guthrie, Griffith, Bilirakis, Ellmers, Barton, Upton (ex 
officio), Pallone, Dingell, Engel, Schakowsky, Matheson, Green, 
Barrow, Castor, Sarbanes, and Waxman (ex officio).
    Also present: Representative DeGette.
    Staff present: Clay Alspach, Counsel, Health; Carl 
Anderson, Counsel, Oversight; Gary Andres, Staff Director; Ray 
Baum, Senior Policy Advisor/Director of Coalitions; Sean 
Bonyun, Communications Director; Matt Bravo, Professional Staff 
Member; Karen Christian, Chief Counsel, Oversight; Noelle 
Clemente, Press Secretary; Paul Edattel, Professional Staff 
Member, Health; Brad Grantz, Policy Coordinator, Oversight and 
Investigations; Sydne Harwick, Legislative Clerk; Brittany 
Havens, Legislative Clerk; Sean Hayes, Counsel, Oversight and 
Investigations; Robert Horne, Professional Staff Member, 
Health; Alexa Marrero, Deputy Staff Director; Katie Novaria, 
Legislative Clerk; Monica Popp, Professional Staff Member, 
Health; Chris Sarley, Policy Coordinator, Environment and the 
Economy; Heidi Stirrup, Policy Coordinator, Health; Tom Wilbur, 
Digital Media Advisor; Ziky Ababiya, Democratic Staff 
Assistant; Phil Barnett, Democratic Staff Director; Stacia 
Cardille, Democratic Deputy Chief Counsel; Brian Cohen, 
Democratic Staff Director, Oversight and Investigations, Senior 
Policy Advisor; Hannah Green, Democratic Staff Assistant; 
Elizabeth Letter, Democratic Assistant Press Secretary; Karen 
Nelson, Democratic Deputy Staff Director, Health; Stephen 
Salsbury, Democratic Special Assistant; and Matt Siegler, 
Democratic Counsel.
    Mr. Pitts. The subcommittee will come to order.
    The Chair will recognize himself for an opening statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Throughout this year, various administration officials, 
including you, Madam Secretary, have sat in this room and 
repeatedly told the American people that implementation of the 
Affordable Care Act was on schedule.
    As we have seen from the disastrous rollout of 
HealthCare.gov and documents showing that the October 1 
deadline could not be met, that was false.
    In fact, every major promise the administration made about 
the ACA, from being able to keep your health plan if you like 
it, to being able to keep your doctor if you want to, the very 
premise of health reform in the first place, that the 
Affordable Care Act would make health coverage more affordable, 
has proven to be wrong.
    My constituents have repeatedly expressed to me that they 
feel they were lied to by the administration about the real 
effects of this law.
    In addition, we are also learning that millions may be 
improperly enrolled in Medicaid as a result of the disastrous 
rollout--resulting in Washington, yet again squandering the 
hard-earned dollars sent to the Federal Government by our 
constituents.
    Words start to lose their meaning when they are delivered 
by individuals who have either misled this committee or were 
woefully ignorant of the disastrous consequences that have 
unfolded since enactment of the ACA.
    The last time you were here, Madam Secretary, you said ``I 
know that it isn't fair to ask the American people to take our 
word for it.''
    While millions of Americans are being harmed by this law, 
my constituents do not trust the administration when it comes 
to the Affordable Care Act, and it is they who are suffering 
because of these broken promises.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    Throughout this year, various administration officials, 
including you, Secretary Sebelius, have sat in this room and 
repeatedly told the American people that implementation of the 
Affordable Care Act was on schedule.
    As we have seen from the disastrous rollout of 
healthcare.gov, and documents showing that the October 1 
deadline could not be met, that was false.
    In fact, every major promise the administration made about 
the ACA--from being able to keep your health plan if you like 
it, to being able to keep your doctor if you want to, to the 
very premise of health reform in the first place, that the ACA 
would make health coverage more affordable--has proven to be 
wrong.
    My constituents have repeatedly expressed to me that they 
feel they were lied to by the administration about the real 
effects of this law.
    In addition, we are also learning that millions may be 
improperly enrolled in Medicaid as a result of the disastrous 
rollout--resulting in Washington yet again squandering the hard 
earned dollars sent to the Federal Government by our 
constituents.
    Words start to lose their meaning when they are delivered 
by individuals who have either misled this committee or were 
woefully ignorant of the disastrous consequences that have 
unfolded since enactment of the ACA.
    The last time you were here, Madam Secretary, you said, ``I 
know that it isn't fair to ask the American people to take our 
word for it.''
    My constituents do not trust the administration when it 
comes to the ACA, and it is they who are suffering because of 
these broken promises.

    Mr. Pitts. And I will yield to the chairman of the full 
committee, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. This committee has 
conducted extensive oversight of the President's health care 
law. Many of the administration's top health officials have 
testified over the last year, including the Secretary. They 
repeatedly looked us in the eye in the spring, summer, and 
fall, and assured us that in fact everything was on track. But 
our oversight has produced documents showing the frantic chaos 
of missed deadlines and delays behind the scenes.
    Sadly, it seems that the administration's assurances about 
being ready to launch were just as empty as the President's 
promises that this law would mean lower costs while allowing 
Americans to keep the coverage and doctors that they have and 
like. And millions of Americans are now enduring the harsh 
reality of canceled plans, the burden of finding a new doctor 
and the financial strain of higher premiums set to shock family 
budgets.
    Far too many Americans who are happy and satisfied with 
their health care coverage on January 1st of this year have had 
their worlds turned upside down as we approach January 1st of 
2014.
    This is a matter of trust. It is time for the 
administration to be honest with folks like Mary Swanson in 
Kalamazoo, Michigan, my constituent, who, along with her 
husband, has lost a self-described excellent plan. No more 
false promises, no more political games, no more questionable 
testimony, it is time for transparency and the truth, and I 
yield the balance of my time to Dr. Murphy.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    This committee has conducted extensive oversight of the 
president's health care law. Many of the administration's top 
health officials have testified over the last year, including 
the secretary. They repeatedly looked us in the eye--in the 
spring, summer, and fall--and assured us everything was ``on 
track.'' But our oversight has produced documents showing the 
frantic chaos of missed deadlines and delays behind the scenes.
    Sadly, it seems the administration's assurances about being 
ready to launch were just as empty as the president's promises 
that this law would mean lower costs while allowing Americans 
to keep the coverage and doctors they have and like. Millions 
of Americans are now enduring the harsh reality of canceled 
plans, the burden of finding a new doctor, and the financial 
strain of higher premiums set to shock family budgets. Far too 
many Americans who were happy and satisfied with their health 
coverage on January 1, 2013, have had their worlds turned 
upside down as we approach January 1, 2014.
    This is a matter of trust. It is time for the 
administration to be honest with folks like Mary Swanson in 
Kalamazoo, Michigan, who along with her husband has lost a 
self-described ``excellent'' plan. No more false promises. No 
more political games. No more questionable testimony. It is 
time for transparency and the truth.

   OPENING STATEMENT OF HON. TIM MUPRHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Chairman Upton. And thank you for 
being here today, Secretary Sebelius.
    As the chairman of the Subcommittee on Oversight and 
Investigations, I worked with my fellow members to conduct 
oversight of the President's health care law. We have had 
several people before our committee who have talked about its 
implementation. Some of the concerns and questions you raised 
in the first part of this year, increased premiums, the burden 
of this law on small businesses, whether the implementation was 
on track and the costs have come to fruition.
    Documents uncovered by the O&I Subcommittee show that the 
administration knew months before the October 1 start-up of 
open enrollment about problems with the Federally facilitated 
marketplace. And yet every administration official came before 
us testified before the committee this year that implementation 
was on track.
    Now we are just 2 weeks away from the January 1 start of 
coverage, and what should the American public expect? 
Unfortunately, the record of transparency has not improved. The 
administration has continued its pattern of announcing delays 
to the law over the holiday weekend, most recently the 1-year 
delay of the online enrollment to the SHOP program. And it 
failed to acknowledge problems when the writing is on the wall. 
In the meantime, millions have received a pink slip from their 
insurance plan, and others are facing unaffordable care with 
new higher rates.
    Last month, a top CMS official told the committee that 30 
to 40 percent of the Web site was yet to be built. I hope you 
will be able to provide, get some answers for us today. I hope 
you also commit today to help speed up the response to the 
committee's document request. Two boxes of documents in 2 
months is not a good response. Thank you.
    Mr. Pitts. The Chair thanks the gentleman. The Chair now 
recognizes the ranking member of the subcommittee, Mr. Pallone, 
5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Pitts. Let me just say 
that I'm sorry that you couldn't find a way to accommodate 
members to attend the Nelson Mandela memorial and not miss 
today's important hearing. Many of the Democrats are at that 
memorial service today, and I know that Mr. Waxman made a 
reasonable request that was denied, and I wish that it hadn't 
been the case. But in any case, we are moving forward. I 
listened to what my Republican colleagues just said about the 
Affordable Care Act, and Madam Secretary, and I don't know 
where the reality is on their part. Sometimes I think that they 
are living on Mars rather than Earth. I heard consequences, 
things like disastrous consequences, harm, suffering, harsh 
reality, world turned upside down.
    I mean, they should have been at my forum. I had a forum 
Monday night in Highland Park which is one of my towns, on the 
ACA, and I heard just the opposite. People were happy because 
they were able to enroll. Some were Medicaid recipients who 
weren't eligible for Medicaid before. Many of them, you know, 
were remarking about, you know, the ability to get insurance 
for the first time.
    So you know it just boggles my mind to hear these 
Republican comments about a world turned upside down when the 
reality is that the Affordable Care Act is working. People are 
getting insurance who didn't have it, people are getting 
affordable insurance with good benefits. I mean, that is the 
reality that I hear when I am home, and I am not making it up. 
I mean, I will take any of them to my forum if they want to.
    Regardless, let me welcome you, Madam Secretary, for 
joining us again. I understand you have been in front of our 
committee more than any other and we are grateful for your 
service and your valuable time. I am eager to hear what I know 
is positive news about the enrollment of coverage under the ACA 
and the law's implementation. Republicans seem to be saying 
things haven't improved. They have improved a lot, and 
certainly the Web site has improved a lot. It is really 
unfortunate that the Republicans continue to focus their time 
and effort trying to obstruct and sabotage the ACA rather than 
working on a constructive way to make sure that as many 
Americans as possible are able to benefit from it.
    I am proud of this law. And I wanted to mention a story, 
one of my constituents from Piscataway, New Jersey, wrote a 
letter to the editor of a local newspaper describing his 
experience with health insurance pre and post implementation of 
the health exchange, and I ask that the letter be submitted for 
the record, Mr. Chairman.
    Mr. Pitts. Without objection, so ordered.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Pallone. I won't read it, but this gentleman found a 
plan on the exchange that cost less than the price of his 
previous plan. It has better coverage, better deductible, 
better out-of-pocket maximum, better copays, better 
prescription drugs. His experience demonstrates that this is a 
quality product that people want to sign up for. I will leave 
it at that because I am yielding now to Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much for yielding to me. I want 
to echo your statement about the regrets that we have that the 
majority wouldn't postpone this hearing so that all members 
could attend the memorial for Nelson Mandela.
    Obviously, more Democrats feel that the reason they wanted 
to be there was more important than to be here. They shouldn't 
have had to make that choice. Madam Secretary, I want to 
welcome you back to our committee.
    HealthCare.gov is much improved since you last appeared 
before the committee. Millions more have applied for coverage 
and signed up. In fact, we just learned today that enrollment 
in November quadrupled over the October enrollment.
    All told, as of November 30, 365,000 people have enrolled 
in private coverage, 1.9 million were through the process just 
waiting to pick a plan, andenrollment has been speeding up each 
and every week. As a result, we are beginning to hear the 
stories of people finally getting the security and peace of 
mind that comes with quality health insurance. And some of 
these stories are very powerful. Barbara from my district 
recently found out that her policy was going to be canceled, 
and she had been rejected in the past for more affordable 
policies because of her back problem. In a new policy she 
obtained on the exchange, her deductibles were cut in half, she 
will save hundreds more on free preventive care, and her 
premiums will never shoot up if she has a serious health event.
    These success stories are happening in every State and 
district in the country, though you wouldn't know it from the 
Republican members' comments. Joanne from Florida had been 
uninsured and hadn't seen a doctor in years. She has repeatedly 
tried to enroll without success, and then this week, she 
purchased a plan for only a few dollars a month. When that 
finely occurred, she burst into tears. Our exchange director in 
California has said that this is a common experience.
    I know this law is controversial, Mr. Chairman, that is 
because of hundreds of millions of dollars, opponents have 
spent trying to demonize the law. I think Republicans are 
afraid that this law is going to be popular when it is fully in 
effect. The public is tired of the partisanship from a divided 
Congress. Mr. Chairman, I want to make one request, and this 
will be the last statement I want to make now. I hope that the 
Secretary gets more respectful treatment from all the members 
than she received in the last hearing. At a minimum, she should 
be allowed to answer questions. The last time she was 
interrupted over and over again.
    There are more Republicans here today than Democrats. We 
are all going to get our chance to ask questions, a lot of 
Democrats won't because they chose to be at the memorial 
service, but whoever asks the question, the Secretary should be 
able to answer her questions and not be rudely interrupted and 
not have the cheap shots she had to endure the last time.
    Mr. Pitts. The Chair thanks the gentleman. The gentleman's 
time is expired.
    Without objection, all members' opening statements will be 
made a part of the record.
    On our panel today, we have the Honorable Kathleen 
Sebelius, the Secretary of the Department of Health & Human 
Services. Thank you again, Madam Secretary, for coming. I urge 
all members to use proper decorum and permit her to respond to 
the questions. But we only have so many minutes. I understand 
members will be trying to get as many questions in as they 
possibly can, and we will try to operate the gavel strictly and 
fairly.
    Madam Secretary, thank you for coming. You will have 5 
minutes to summarize your testimony. Your written testimony 
will be placed in the record. At this time the Chair recognizes 
the Honorable Secretary Sebelius, 5 minutes.

STATEMENT OF KATHLEEN SEBELIUS, SECRETARY, DEPARTMENT OF HEALTH 
                        & HUMAN SERVICES

    Ms. Sebelius. Well, thank you, Chairman Upton and Ranking 
Member Waxman, Mr. Pitts, Mr. Pallone, members of the 
committee, since I was last here on October 30th, our team has 
been working around the clock to improve HealthCare.gov. We 
committed to making the site work smoothly for the vast 
majority of users by the end of November, and after several 
hundred software fixes and hardware upgrades, we have achieved 
this first benchmark.
    While there is still more work to do, we have made great 
progress. HealthCare.gov is working faster, responding more 
quickly and we are able to handle larger volumes of concurrent 
users. Pages that once took 8 seconds to load are now 
responding in under a second. The site's error rate which once 
topped 6 percent has been driven down to below 1 percent. The 
system has more redundancy and stability, and we can now handle 
50,000 simultaneous users and more than 800,000 daily visitors.
    Now as more Americans give HealthCare.gov a second look, 
they are finding the experience is night and day compared to 
where we were back in October. And they are responding by 
shopping for plans and enrolling in greater numbers. As Mr. 
Waxman has said, more than four times as many enrolled in the 
Federal marketplace in November as enrolled in October.
    In the first 2 months, nearly 1.2 million Americans either 
selected a marketplace plan or received a Medicaid or CHIP 
eligibility determination with nearly 365,000 people selecting 
a plan and 803,000 receiving a determination.
    An additional 1.9 million people have made it through the 
application and determination, but have not yet selected a 
plan, and we expect that as more folks talk things over with 
their families and learn about their new options, more will 
enroll. To those who have been frustrated with the experience 
so far, we are asking you to come back.
    It is now easier than ever to shop for plans and enroll on 
line, over the phone, on paper, in person or directly through 
an issuer or agent. More than 5 million Americans have dialed 
into our call center in the first 2 months, 450,000 have 
received assistance from more than 19,000 trained assisters. 
And in the first week of December alone, HealthCare.gov 
received nearly 5 million visits.
    Open enrollment for health insurance continues for 3-1/2 
more months, so there is still time. To put this in 
perspective, most private insurance plans offer open enrollment 
for only a few weeks.
    Now we continue to be relentless in our efforts to improve 
HealthCare.gov, and we are committed to learning, adapting, 
improving and acting on the feedback we received from consumers 
and issuers alike. As I told this committee at the end of 
October, the initial launch of HealthCare.gov was flawed, 
frustrating and unacceptable. And I believe strongly in 
accountability and our obligations as public servants to be 
good stewards of taxpayer dollars.
    Now that the Web site is working more smoothly, I have 
determined it is the right time to begin a process of 
understanding the structural and managerial policies that led 
to the flawed launch so we can take action and avoid these 
problems in the future.
    Today I am announcing some initial steps I have taken. I 
have asked our inspector general, Dan Levinson, to investigate 
the development of HealthCare.gov including contractor 
acquisition, the overall management of the project and 
performance and payment of our contractors. I have asked CMS 
Administrator Marilyn Tavenner to create a new position of 
chief risk officer at the Centers for Medicare & Medicaid 
Services and to expedite the search and hiring. This will be a 
full-time employee charged with assessing risk management 
practices and developing strategies to minimize those risks.
    And let me be specific. I will instruct this officer to 
look at IT and contracting management practices starting with 
HealthCare.gov and the risk factors that impeded a successful 
launch. I will ask for an initial report in the first 60 days 
with recommendations on how we can mitigate risk as we move 
forward. And I have instructed CMS to update and expand their 
employee training, they will be required to adopt best 
practices for contractor and procurement management, rules and 
procedures, including internal communications and processes. 
These actions build on reforms we have already made which have 
led to significant improvements in the Web site. It includes 
the addition of Jeff Zients as the management expert and 
consultant to Administrator Tavenner and me, selecting QSSI as 
the systems integrator and changing the day-to-day CMS 
management of HealthCare.gov.
    Fixing a flawed Web site has proven challenging, but it is 
nothing compared to the challenges that American families face 
every day, particularly those families who don't yet have 
health coverage, families who are one medical bill away from 
bankruptcy, one diagnosis away from not being able to afford 
their mortgage or their rent. And these efforts are about them. 
Before the Affordable Care Act, as many as 14,000 of our 
neighbors were losing their coverage each and every day. The 
market operated inefficiently, we as a Nation paid more and got 
lower health results.
    Today, health care cost growth has been driven down to the 
lowest levels in 50 years, and millions of Americans are 
already benefiting from new rights and consumer protections. 
With the new marketplace, choice and competition among private 
market plans is now available to millions of Americans. But our 
work is not done until every eligible American has the 
opportunity to access affordable coverage.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Sebelius follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Pitts. The Chair thanks the gentlelady. I will begin 
questioning and recognize myself 5 minutes for that purpose.
    Madam Secretary, based on current trends, it is likely that 
more individuals will have lost coverage on January 1st than 
will have gained it under the law. HHS released data this 
morning stating that approximately 364,000 Americans have 
selected a plan through a State or a Federal exchange. Is that 
correct?
    Ms. Sebelius. Yes, sir.
    Mr. Pitts. Of these 364,000 Americans, do you know how many 
of those individuals will actually have coverage in effect on 
January 1, 2014?
    Ms. Sebelius. Sir, once they pay their premium, they will 
have coverage in effect.
    Mr. Pitts. So you don't know. These are the ones who have 
just selected plan but haven't paid their first payment on the 
premium?
    Ms. Sebelius. Some may have paid, some may not. We are 
giving you the enrollment numbers.
    Mr. Pitts. Do you even--this is a critical statistic, it is 
clear HHS knows the number of Americans who essentially have 
put a plan in their shopping cart. Your testimony includes data 
on the number of users who can use HealthCare.gov 
simultaneously and the number of Web site hits. However, this 
most critical statistic, the number of Americans who will 
actually have coverage effective January 1, do you have an 
estimate?
    Ms. Sebelius. Sir, I think 365,000 through the end of 
November have enrolled in coverage, and we are dealing with the 
issuers to confirm their actual payment.
    Mr. Pitts. Would you define ``enrollment''? Define what you 
mean by ``enrollment.''
    Ms. Sebelius. We are giving you the numbers of individuals 
who have chosen a plan.
    Mr. Pitts. But not actually paid their first premium----
    Ms. Sebelius. That is correct.
    Mr. Pitts [continuing]. Or received a card?
    Ms. Sebelius. Through the end of November, yes. Payment 
isn't due as you know, sir, until mid December in order to be 
fully covered. So we don't have those numbers, and I think most 
Americans probably will not pay until their money is owed.
    Mr. Pitts. So you can't guarantee the actual number of 
constituents who have coverage that they----
    Ms. Sebelius. Not until they pay their premium.
    Mr. Pitts. In October, the AP reported that a September 5 
memo sent to you listed monthly enrollment targets for the 
exchanges, and this memo indicates that your target enrollment 
number for the end of December is 3.3 million. Based on HHS' 
release this morning, your Department is more than 3 million 
off their target number, isn't that correct?
    Ms. Sebelius. Through the end of November, that is correct, 
sir.
    Mr. Pitts. Some news reports have indicated that as many as 
5.6 million individuals have had their policy canceled. Isn't 
it the case that on January 1, more Americans will have their 
coverage canceled than will have enrolled in an exchange?
    Ms. Sebelius. Well, sir, I don't know where the 5 million 
number comes from. I know people have been told that their 
health plan doesn't necessarily match the ACA compliant plans. 
They are not in a grandfathered plan, and a number of those 
individuals have already re-enlisted and enrolled in plans. So 
losing coverage and being notified that the plan that they had 
doesn't exist anymore are two very different things.
    Mr. Pitts. Now much like the millions of cancelations in 
the individual market, the Affordable Care Act requires group 
coverage to also comply with HHS standards, and many of these 
plans could be canceled next year as well.
    Madam Secretary, the issue with the canceled plans and the 
President's broken promise that if you like it you can keep it, 
this is because some of those individual plans did not comply 
with the health care law's 2014 requirements, correct?
    Ms. Sebelius. That is true, sir, or they did not stay in a 
grandfathered plan. What the law said from the outset is if 
insurers left the plan in place that an individual had in March 
of 2010, and there are millions of Americans who are in those 
grandfathered plans, that the plan stayed in effect through the 
implementation of the Affordable Care Act.
    Mr. Pitts. Now, what about small group market plans used by 
small businesses and their employees. Don't these have to 
comply with the ACA standards?
    Ms. Sebelius. In the same way. If the grandfathered plans 
stayed in effect, they could still be in effect. If not, the 
consumer protections that are available through the Affordable 
Care Act would come into play.
    Mr. Pitts. Could some small group plans be canceled because 
they do not comply with the ACA?
    Ms. Sebelius. Yes, sir. And, again, insurers cancel plans 
each and every year. They change plans, they change networks. 
That is part of the market strategy.
    Mr. Pitts. Madam Secretary, before passage of the health 
care law, President Obama routinely promised that the average 
family would save over $2,000 on their premiums. Would you 
agree today that this simply is not true, every family will see 
premium decreases? Some will see increases? Yes?
    Ms. Sebelius. Well, Mr. Pitts, I think that the President 
talked about health care costs going down for Americans. I 
think that we have adequately documented that health care 
costs, indeed, have gone down based on the trajectory that we 
would have seen, absent the Affordable Care Act, underlying 
health costs are rising at the lowest rate in 50 years, 
Medicare costs have risen at this lowest rate, Medicaid costs 
have actually come down per capita throughout the country, and 
private insurance rates are rising at the lowest level that 
they have in decades. So Americans are seeing a very different 
cost trajectory than they would have absent the passage of the 
Affordable Care Act.
    Mr. Pitts. My time is expired. Thank you, Madam Secretary, 
for your responses. The Chair now recognizes the ranking member 
Mr. Pallone 5 minutes for questioning.
    Mr. Pallone. Thank you, Mr. Chairman, and again, Madam 
Secretary, I don't want to keep beating a dead horse here but 
this whole idea that we hear from the Republicans that the 
world is turned upside down and this, ACA is a disaster is just 
the opposite. As you point out, health care costs you know are 
going down, rates are rising at a less of a level. This whole 
idea of the President saying if you like it, you can keep it, I 
mean the President didn't say that if you had a lousy health 
insurance policy that didn't cover everything that he was to 
suggesting that insurance companies continue to sell it and 
therefore you buy it. I was at the Rules Committee the other 
day when the President issued his executive order, and I had 
one of my colleagues from Florida, one of my Republican 
colleagues, talk about how his constituents should be able, 
should have the freedom, she used the word ``freedom,'' to keep 
his or her health plan that cost $60 a month. And I asked, 
well, what is this health plan? It didn't include 
hospitalization. I don't think the President meant that you 
should have the freedom to keep a health insurance plan that 
didn't include hospitalization, I mean, if you want it, his 
executive order says you can do it, but I think it is absurd to 
keep arguing over these lousy skeletal plans.
    In any case, the reality is that enrollment is 
accelerating, and I wanted to ask you about enrollment. The 
numbers released today are impressive, and I wanted to get some 
broader context from you on how enrollment is progressing. We 
always expected enrollment to be slow in the early months, and 
that is what happened in Massachusetts when they implemented 
the health care reform. In the first month, only .03 percent of 
people in Massachusetts who ultimately signed up actually 
enrolled. But the clear trend in the report released today in 
the reports from the States is that enrollment is surging. In 
November, there were four times more enrollments in private 
plans than in October, more than 1.2 million enrolled in 
private plans that were found eligible for Medicaid, and more 
than 1.9 million people were eligible for marketplace coverage, 
employees were enrolled as soon as they select the plan, 3.7 
million have applied for coverage. But the most important fact 
is the trend, the pace of enrollments at the end of the month 
was double the pace at the start of the month, and that trend 
appears to be continuing.
    Press reports have indicated that more people have signed 
up for private coverage through the Federal marketplace on 
November 30th and December 1st than signed up for all of 
October. Another press report noted that more people selected a 
plan in the first week of December than selected one in the 
whole of November.
    These are exciting signs. So just given the technical 
issues we have had and the corresponding delays in much of the 
outreach campaigns, how would you measure the progress at this 
point in terms of enrollment?
    Ms. Sebelius. Well, Mr. Pallone, I don't think there is any 
question that the flawed launch of the Web site put a damper on 
people's enthusiasm about early sign-up. We had a lot of 
visitors early on who got very frustrated and have not 
reengaged. We have been inviting them back to use a newly 
improved site, and we are seeing some very, very positive 
trends in that direction.
    So I don't want to minimize the dampening effect that the 
flawed technology has, not just on the Federal Web site, but I 
think on news reports also, I think dampened enthusiasm at the 
State level. It was hard for California, for instance, to 
ensure people that their site was fine while there was a lot of 
news day in and day out about the flawed site.
    Having said that, we are seeing very, very positive trends. 
We are seeing a lot of people reengage. And it is about not 
only just the numbers of individuals, but at the end of the 
day, hopefully getting the right mix of individuals and we know 
that a lot of younger Americans are very tech savvy, want a 
fully functioning, easy-to-operate site and so getting 
HealthCare.gov up and running correctly also helps with some of 
these targeted numbers.
    Mr. Pallone. I appreciate that. Let me just say, I only got 
50 seconds here, at my forum, as I said, which was very 
successful in Highland Park and people were happy with what we 
were doing the other night, they were particularly pleased that 
you had that option where you didn't have to, you know, 
basically provide all your information, but could comparison 
shop without actually enrolling. I thought that was very good.
    And still do encourage people to use alternatives. I know 
you are right, a lot of people like to use the Web site. But I 
know there were a lot of people at my forum who were, you know, 
calling the 800 number, going to community health centers, and 
also we had some insurance agents and brokers there, and I 
think that I notice that there is, I think we should encourage 
that as well as alternatives.
    Ms. Sebelius. We have been conducting some pilots with a 
large number of insureds in key States. I think they have gone 
extremely well. We are encouraging insurance companies to have 
their agents and brokers directly enroll, and I think that 
experience has been very productive and we are working closely 
with them on the kind of technology fixes that they would find 
most effective.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Pitts. Thank you, Madam Secretary. The Chair now 
recognizes the chairman of the full committee, Mr. Upton, 5 
minutes for questioning.
    Mr. Upton. Well, thank you, Mr. Chairman. So the goal was 
to enroll 7 million Americans by the end of March, 365,000 
folks enrolled through the end of November, premiums are due 
beginning mid December. I wonder, Madam Secretary, if you could 
tell us after Christmas somewhere between Christmas and New 
Year's as to how many people actually do pay the premium that 
is due, if you could share that number during the Christmas 
break with us.
    Would that be possible if you could get a number mid 
December?
    Ms. Sebelius. Chairman Upton, we--the deadline to enroll is 
the 23rd, the deadline to pay is the end of the year, so we 
will not have a number until some time in early January.
    Mr. Upton. So the first of the year? Can you let us know 
that first week as to how many people actually paid?
    Ms. Sebelius. I will let you know as soon as we have the 
numbers, sir.
    Mr. Upton. You indicated to Mr. Pallone that, in fact, the 
launch was flawed. Knowing what you know today, do you wish, in 
fact, that you had delayed the launch beyond October 1st?
    Ms. Sebelius. Well, I certainly wish we could have saved 
millions of people a very frustrating experience and had a 
smoother technology launch. I acted on the best information 
that I had. And going forward, I think that having an 8-week 
delay in a fully functioning site is enormously frustrating to 
millions of Americans and their families.
    Having said that, I think there are millions of people who 
are going to begin receiving health coverage that they never 
had January 1st and into the new year, and so on balance, I am 
not sure what the right answer is. The law's benefits went into 
effect January 1st. People needed some time to sort out 
options. We clearly put a dent in that time, but there are 
going to be millions of Americans with new health coverage, and 
that will continue on into the new year.
    Mr. Upton. So knowing what you know today, you would have 
started the launch October 1?
    Ms. Sebelius. I would have probably done a slower launch 
maybe with fewer people and done some additional beta testing, 
which is part of what has happened, frankly, in the early 
months of the launch to identify what problems we had.
    Mr. Upton. So let me go a little deeper. So what grade, if 
you could give yourself, not you, but HHS, the grading of the 
launch from A to E or incomplete what would you give the----
    Ms. Sebelius. Mr. Chairman, I have already said that I 
think the launch was flawed and failed and frustrating for 
millions of people. Unacceptable, we want to both figure out 
exactly the chain of events, what went wrong, which is why I 
have asked the Inspector General help do this investigation. We 
have made some changes.
    And what we are doing is moving forward. We want to make 
sure that the millions of people who are eager for affordable 
health coverage have that opportunity before March 31.
    Mr. Upton. So you announced the IG investigation yesterday. 
Do you wish that you had started that maybe this summer asking 
some tough questions in terms of where things were knowing what 
you knew back then?
    Ms. Sebelius. I didn't have cause to ask the IG to be 
involved last summer, no, sir.
    Mr. Upton. The day after Thanksgiving, the administration 
announced that States would be permitted to use incomplete 
enrollment information to sign people up for Medicaid. Is it 
possible that by using incomplete enrollment information, 
States could be enrolling folks the most vulnerable, by the 
way, for Medicaid who are not actually eligible?
    Ms. Sebelius. Sir, we are working very closely with States 
around Medicaid eligibility, making determinations based on 
States' specific laws which they have an opportunity to sign 
off on. So when someone presents at the Web site, and we review 
their eligibility criteria based on the law of Michigan, we 
determine preliminary eligibility and send that file to the 
State.
    At the same time the State is doing the same thing for 
people from Michigan who may come to the State Medicaid office 
thinking that they are Medicaid eligible and are determined to 
be marketplace eligible they are returning the files to us.
    Mr. Upton. But the information is incomplete, is it not?
    Ms. Sebelius. Sir, I am not sure what you are referring to. 
We are gathering data and information and eligibility. And 
again, the State makes the determination based on their State 
law and based on the information that we have selected.
    Mr. Upton. So are income and residency requirements a part 
of that information that has to be verified?
    Ms. Sebelius. I am sorry incoming----
    Mr. Upton. Income and residency.
    Ms. Sebelius. Yes, sir. The State again makes the final 
Medicaid determination. We make the preliminary determination 
and send an individual to the State. If the State doesn't 
confirm that they meet those requirements, they will not enroll 
the individual. We have now, as of last night, again, got the 
systems automated so these files will be sent automated, but we 
are also sending what we call flat paper files with full 
information to the States and working one at a time with 
States, particularly those States like Michigan which has 
expanded Medicaid for their population to make sure that the 
data is verified. By the State makes the final Medicaid 
determination, not the Federal Government.
    Mr. Pitts. Thank you, Madam Secretary. The Chair now 
recognizes the ranking member of the full committee, Mr. 
Waxman, 5 minutes for questioning.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I know that there is a lot of politics around this issue. 
And I certainly understand that changing to a system that is 
more fair and stable for every American, not just a few, but 
every American, is not easy. But all of this is exacerbated by 
wild propagandists' politicized statements that have been made. 
Even today, the chairman said more people will have lost their 
coverage than will get coverage. Well, that absolutely cannot 
be true. It is not true. The Congressional Budget Office, which 
is not Democratic or Republican, it is nonpartisan, they 
estimated that 7 million people will sign up for health 
insurance in the first year, and that 25 million people will be 
newly insured in 2016. That is really a major accomplishment.
    Now we hear Republicans saying more people are losing their 
policies. But who are those people? We hear estimates that 80 
million people will lose their insurance. When you look at that 
statement, they are saying that people who have a change in 
their policy have lost it. For example, when they get free 
preventive services now covered, oh, that means they are losing 
the policy they had. Or if young adults can stay on that policy 
up to age 26, Republicans say see they are losing that policy. 
Well, that doesn't make sense--unless you are trying to 
exaggerate numbers.
    There are some small businesses in this country who have 
offered their employees skimpy plans. And now they are being 
told they have got to have minimum standards in those plans, so 
they are complaining a lot because they are going to have to 
provide decent, quality, reliable insurance. And a lot of them 
are helping fuel this argument.
    So to say that 80 to 100 million people may lose their 
insurance is absolutely crazy. It is just not true. And it is 
especially galling to some of us when we hear Republicans so 
saddened by people losing their insurance when we recognize 
that they want a status quo which means repeal the Affordable 
Care Act where we had 50 million people uninsured. That didn't 
bother them.
    So I just think that we ought to put this in perspective, 
Madam Secretary. This is not about this law, and it is not 
sincerely concern for the uninsured. It is just a political, 
constant political attack. The Republicans did not want to work 
with the Democrats, they didn't want to work with the 
President. If this bill has problems, let's work together to 
fix them, not talk about how it is no good, it is all terrible. 
Because I am hearing from a lot of people.
    And I think the headline in The New York Times captured 
this. The article was titled, ``Amid the Uproar Over Health 
Law, Voices of Quiet Optimism and Relief,'' they are voices 
like Stephanie from Lansdowne, Pennsylvania, who had a 
frustrating experience trying to submit her application for the 
first 2 months, and then after visiting a navigator at the 
local library, she signed up for a policy that will cost $113 a 
month with no deductible. And what she said is, I am one of the 
people whose plans were canceled and signing up this time was 
just the easiest thing in the world.
    They are the voices of Ellen and Meredith from San Diego in 
2012 they lost their coverage because they no longer lived in 
the plan service area. When they applied for new coverage, 
Ellen was denied because of carpal tunnel system. Now they have 
a plan through the exchange of $142 a month instead of the 
$1,300 a month they were paying before. They have a higher 
deductible than their old plan, but lower co-pays. And here is 
what they described their feelings, we felt we didn't have to 
panic or worry. If not for the Affordable Care Act, our ability 
to get insurance would be very limited if we could get it at 
all.
    Madam Secretary, you have traveled around the country talk 
to people about this law. Do you think most people look at this 
as a political issue? Or are they willing to put politics aside 
and look at the plans being offered and make the decisions of 
what is best for their family?
    Ms. Sebelius. Well, Mr. Waxman, what I find is a lot of 
people are eager for information. They are confused by what 
they read and hear. And frankly, the launch didn't help that. 
But as people understand their options and choices, I find that 
there is enormous enthusiasm, often huge relief. A lot of 
individuals who received the notice of cancelation are unlocked 
from a policy choice that they did not feel was good for them 
or their families. They were kind of locked into a plan. And I 
talk to people every day who now have 40 or 50 choices, a range 
of marketplace plans, the option to pick and choose.
    That isn't to say that there aren't some individuals who 
would have preferred to stay in their plans, which is why I 
think the President decided on the transition policy in the 
marketplace. But a lot of individuals----
    Mr. Waxman. They didn't know what they had offered to them 
on the exchange.
    Ms. Sebelius. Who received cancelation notices are thrilled 
with the choices that are now available to them.
    Mr. Pitts. Thank you, Madam Secretary. The Chair now 
recognizes the vice chair of the full committee, Mrs. 
Blackburn, for 5 minutes for questions.
    Mrs. Blackburn. Thank you, Madam Secretary.
    I want to talk to you about data security and privacy. 
First off, I know you have seen the USA Today story about 
people in California having their information released to 
insurance agents, and this all happened after they had gone to 
the exchange.
    We are hearing from other States that people are having 
that same experience with Federal exchanges. So have you talked 
with the California exchange about releasing that information, 
help them to realize this is inappropriate to release that 
information?
    Ms. Sebelius. Well, I don't think there is any question 
that there is an issue about releasing anybody's personal 
health information as was done in California. And there have 
been certainly conversations about that. As you know, we don't 
run the California exchange. That is no excuse. Privacy and 
security are hugely important.
    Mrs. Blackburn. OK. How is the information being released? 
Who is releasing it? Who all has access to that? And when it is 
released, are people paying for that information? And who gets 
the proceeds from the sell if you are selling that information?
    Ms. Sebelius. I am not sure. Are you talking about the 
California specific incident.
    Mrs. Blackburn. I am talking about any of these exchanges 
where people are getting----
    Ms. Sebelius. Well, to my knowledge, the California 
incident is an isolated case. We have no information--there is 
certainly no information about anybody at the Federal 
marketplace for the 36 States release----
    Mrs. Blackburn. I think we are all getting some questions--
--
    Ms. Sebelius. Well, there is no information released, and 
actually, we don't store personally identifiable information on 
the hub.
    Mrs. Blackburn. Will you help us look into this and get to 
the bottom of it? Because people are getting phone calls, and 
that means their information is being released.
    Now, if somebody is benefiting, and if that is being sold 
or if there is some kind of transaction on that, we need to 
know that, Madam Secretary.
    Let's go on and talk about calls----
    Ms. Sebelius. But I would suggest, Congresswoman, the fact 
that they are getting phone calls also maybe if they are 
customers of an insurance company who is contacting them 
because their policy may be up for renewal. Those calls are 
underway.
    Mrs. Blackburn. I don't think that is quite the case.
    But let's go on and talk about cost. $600 million is what 
we know has been spent on the site so far. I am referencing The 
Washington Post on that. How much money in total has been 
spent? We are still waiting for the answer to that question 
from you. We would like to know how much you have obligated 
since October 1 for the cleanup of this exchange? How much 
money do you anticipate obligating through March of 2014? And 
since you are going to have the IG do an investigation of the 
contracting, are you going to make these contractors pay this 
taxpayer money back?
    Ms. Sebelius. Congresswoman, to date, through the end of 
October, and I am giving you the cleanest audited numbers that 
we have, we have obligated $677 million for the total IT costs, 
and have outlaid 319 million of that 677. Some of that includes 
work clearly in the month of October, we will give you regular 
updates as we have newly audited numbers. I have asked the IG 
to become involved because I think it is very appropriate to 
look at all aspects of not only the management practices, but 
the contractor expenditures, the specs in the contract, the 
payment issues----
    Mrs. Blackburn. OK.
    Ms. Sebelius. And I will act based on his recommendation.
    Mrs. Blackburn. OK, so 677 million is what you have 
obligated through the end of October.
    Ms. Sebelius. That is correct.
    Mrs. Blackburn. Of this year?
    Ms. Sebelius. That is correct.
    Mrs. Blackburn. So would you give us the additional----
    Ms. Sebelius. Through the end of October, yes, that is the 
obligated amount. We have spent 319 million of that 677 through 
the end of October.
    Mrs. Blackburn. We are going to continue to watch that cost 
number very closely.
    Delays. It seems like every holiday brings another delay. 
So what should we expect for Christmas and New Year? We have 
had a total of 13 administrative delays to major aspects of the 
law. And it seems like whether it is July 4th or any of the 
holidays, Thanksgiving, we get a delay. So what are we looking 
at for Christmas Eve and Christmas and New Year's Eve and New 
Year's Day?
    Ms. Sebelius. Well, Congresswoman, I would say that we have 
extended the deadline for enrollees from the middle of December 
until the 23rd recognizing that people need some extra time 
over the holidays----
    Mrs. Blackburn. OK, into the future, what can we expect?
    Ms. Sebelius. To choose a plan. They don't have to pay 
until the end of December in order to be fully enrolled, and we 
are working with insurers to make sure there is a smoother 
transition into the new year.
    Mrs. Blackburn. Yield back.
    Mr. Pitts. Thank you, Madam Secretary. I now yield to the 
ranking member emeritus, Mr. Dingell, 5 minutes for questions.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy 
and for holding this important hearing.
    Madam Secretary, welcome, and thank you for being here.
    As we all know, the Secretary is the famous daughter of a 
former member of this committee, an outstanding member from 
Ohio. Madam Secretary, we continue to hear nothing but scare 
tactics from the other side of the aisle. Rather than 
encouraging people to sign up for health insurance, doubt is 
being created where none exists or should. I am first to admit 
that the implementation of the law has not gone as smoothly as 
I would have liked, but that is, in no small part, due to the 
intransigence of many of my colleagues who have deliberately 
thrown wrenches in the gears at every opportunity.
    Moreover, my constituents continue to tell me about the 
benefit ACA continues to bring them. And I would like to share 
a few letters I have received recently and I ask unanimous 
consent that they be put in the record.
    One of my constituents wrote as follows, ``I find it 
absurd, embarrassing and an enormous waste of time, money and 
human capital to see the taxes being used in Washington right 
now to defund the Affordable Care Act. As an individual who has 
a sibling with MS, a father with lung cancer and a sister with 
a high-risk pregnancy, I can say with absolute personal 
authority that the Affordable Care Act will help and is 
critical to the welfare of families like mine.''
    Another constituent wrote, ``I am registered with 
HealthCare.gov so that I can study and compare premium prices 
and I am currently paying for my 60-plus employees in Ohio and 
Michigan. I am extremely pleased that even gold coverage plans 
are half of what we were paying now. There are 72 gold plans 
being offered. Now that is competition. So let's stop playing 
politics, look past the spin and realize what tremendous good 
ACA has already accomplished for the American people, and what 
more it could do if we will get together to make it as 
successful as it could be.''
    Madam Secretary, I would like to begin by asking you some a 
few questions about fixes to the Web site.
    Madam Secretary, is it correct that the error rate on 
HealthCare.gov is under 1 percent, yes or no?
    Ms. Sebelius. Yes, sir.
    Mr. Dingell. Madam Secretary, the capacity has increased to 
allow 50,000 concurrent users and more than 800,000 visitors 
daily, yes or no?
    Ms. Sebelius. Eight hundred thousand minimum a day could 
come on the site.
    Mr. Dingell. Now, as the Web site has improved, we have 
also seen an increase in the number of enrollments through the 
Web site. Today we got more good news about enrollments.
    My question, is it correct that 258,000 people selected a 
plan through both Federal and State marketplaces in November 
bringing the overall enrollment number to 364,000?
    Ms. Sebelius. Yes, sir. 365,000.
    Mr. Dingell. Well, Madam Secretary, over 1.5 million people 
have been eligible, have been determined eligible for Medicaid, 
yes or no?
    Ms. Sebelius. About 800,000 Medicaid eligibilities have 
been determined.
    Mr. Dingell. Thank you, Madam Secretary.
    Are you confident that enrollment will continue to increase 
quickly in the coming weeks and months? Yes or no?
    Ms. Sebelius. We are seeing a very positive trend, about 
four times as many people enrolled in the Federal marketplace 
in November as opposed to October, and we are seeing an upward 
trend in December. Yes, sir.
    Mr. Dingell. People like--Madam Secretary, people like my 
constituents I mentioned earlier are seeing reduced costs when 
purchasing insurance through the marketplace.
    Is it correct that a recent Rand report found that premium 
tax credits will reduce out-of-pocket costs for average 
marketplace participants by 35 percent, yes or no?
    Ms. Sebelius. Well, I think, sir, if people are eligible 
for subsidies, they will see a significant decrease over the 
comparable plan.
    Mr. Dingell. I am running out of time. So you have to give 
me yes or no.
    Did the CBO project that 8 in 10 Americans who obtain 
coverage through the marketplace will be eligible for 
assistance to make their coverage more affordable, yes or no?
    Ms. Sebelius. I think the preliminary estimates were that 
is what the uninsured population certainly look like, yes.
    Mr. Dingell. So ACA also benefits people who don't purchase 
their health insurance through the new marketplaces.
    Now, Madam Secretary, is it correct that thanks to ACA, 3.1 
million young Americans, adults, have been able to stay on 
their parents' plan, yes or no?
    Ms. Sebelius. Yes, sir.
    Mr. Dingell. Now, Madam Secretary, 7.3 million seniors have 
saved over 8.9 billion on their prescription drug costs thanks 
to provisions in ACA that closed the Medicare part D donut hole 
and that that donut hole will be totally closed in the year 
2020?
    Ms. Sebelius. Yes, sir.
    Mr. Pitts. The gentleman's time has expired.
    Mr. Dingell. You have been very courteous, and I thank you, 
Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman. I now recognize 
the chair emeritus of the full committee, Mr. Barton, 5 minutes 
for questions.
    Mr. Barton. Thank you, Mr. Chairman. Before I ask my 
questions, first of all, merry Christmas. And who was your 
father who served on the committee from Ohio?
    Ms. Sebelius. John Gilligan from Ohio.
    Mr. Barton. John Gilligan. See, I wasn't there then.
    Ms. Sebelius. But you may have served with my father-in-
law, Keith Sebelius. So we had people on both sides.
    Mr. Barton. Just on a personal issue. Let me get to the 
unfun part and go to the questions.
    Mr. Henry Chao of CMS, when he was here several weeks ago 
in response to a question of Congressman Gardner of Colorado 
made a statement that 40 percent of the computing system hadn't 
even been built yet, that all of what he called the back end 
hadn't been built, which I would assume would be the accounts 
payable and accounts receivable and income verification and 
things like that.
    Could you tell us what is being done to try to get that 
ready by January the 1st since almost half the system 
according, to Mr. Chao, hadn't even been built yet?
    Ms. Sebelius. Congressman, I am not exactly sure what Mr. 
Chao was referring to, but I can certainly tell you where we 
are in the build. I think the emphasis was getting the consumer 
facing portion ready for October 1. As you know, that didn't go 
so well. The financial management system which is getting the 
insurance companies, their money for accelerated tax credits 
and for cost sharing is due to go into effect in mid January. 
There are also some other pieces of the puzzle, not income 
verification. That is done as part of the application at the 
very front end in order to qualify someone. So that is all 
built in.
    Mr. Barton. Well, do you agree with Mr. Chao that a large 
part of this system hasn't been put together yet? And if so, 
aren't you concerned about that?
    Ms. Sebelius. Well, it is in the process currently of being 
put together. The income issues, again, I want to clarify for 
the committee that, because it has been a bit of a 
misunderstanding, accelerated tax credits and cost sharing 
don't go to consumers, they go to companies. We are dealing 
with 2 to 300 companies. And it will, we have a system that we 
have announced working with companies where they will be paid 
in a timely fashion as this process is being built.
    Mr. Barton. I don't want to beat a dead horse. But we all 
agree that the Web site to try to enroll people has not worked 
very well, to be as polite as possible. Now that is the easy 
part. So now we are down to, in January, there are lots of 
people that think they are going to have insurance that don't 
have it now. And the part of the system that when they go to 
the doctor or to the hospital and they give them their new 
insurance card that they check to see if they are covered and 
what the coverage is, that is not there. And there is no system 
there to pay people. There is no system there to determine 
whether this doctor or this hospital is eligible, and you still 
want to get this thing started on January the 1st?
    Ms. Sebelius. Congressman, I think it is not an accurate 
statement. We certainly have a plan, and we have vetted it and 
discussed it with insurers that they are very comfortable with 
to get them----
    Mr. Barton. They were also very comfortable that October 
1st was going to work, and----
    Ms. Sebelius. Sir, this is--people will be enrolled. That 
system is in place, that is what the application is about.
    Mr. Barton. After this, we will have you back here in mid 
January or February talking about this problem.
    Ms. Sebelius. This is reimbursing insurance companies. At 
the end of the day, it has nothing to do with enrollment. And 
enrollment will----
    Mr. Barton. I am not saying it does have anything to do 
with enrollment. Let me go to my second----
    Ms. Sebelius. When people go to the doctor and go to the 
hospital they will have a card. They will be----
    Mr. Barton. I have got a minute left. I have got one more 
question. I want to put the slide up that says on Section 1401. 
Under the law, Section 1401 says that if you go through a State 
exchange to get insurance under what we call Obamacare, that 
you are eligible for a subsidy. If you don't go through that 
State exchange, you are not eligible for a subsidy. Now, IRS 
has ruled that we don't have to obey the law. We are going to 
give the subsidies if we go through the State exchanges or not. 
What is HHS's position on obeying the law, and doing what the 
law says, which would mean almost everybody who signs up for 
Obamacare is not eligible for a subsidy because they are not 
going through the State exchanges?
    Ms. Sebelius. Sir, we have deferred to our partners at the 
Justice Department, and at the Treasury for----
    Mr. Barton. Now, what is your position? What is the HHS's 
position?
    Ms. Sebelius. We have referred to our partners. This is in 
litigation, as you know, right now.
    Mr. Barton. I am asking what your position is? You are not 
worried about obeying the law?
    Ms. Sebelius. We feel that the law covers both State and 
Federal exchanges.
    Mr. Barton. That is not what it says.
    Ms. Sebelius. The recommendation of the Justice 
Department----
    Mr. Pitts. The Chair thanks the gentleman. Thank you, Madam 
Secretary. I recognize the gentleman from Utah, Mr. Matheson, 5 
minutes for questions.
    Mr. Matheson. Well, thank you, Mr. Chairman, and Madam 
Secretary, thanks for joining us today.
    You know, we have already had one hearing on the Web site 
before now. We are all aware of some of the challenges of the 
rollout. You know, when you come before a committee there is 
all kinds of things--other topics I would like to raise with 
you, issues about the health insurance tax, or difficulties 
some providers are having with meaningful use, Stage 2, but in 
the--I think this hearing is more about rollout of Web site 
itself, and so I will focus on that in my questions today.
    I think we all know that, and you have acknowledged the 
criticism of the Web site when it was coming out. Let me ask 
you a question. As we go forward, have you developed sort of a 
master list of the issues that still need to be resolved, or 
the issues you are trying to anticipate as we move forward from 
today?
    Ms. Sebelius. We are doing that on an updated basis, yes, 
sir, both on a policy side and on a technology, and user side.
    Mr. Matheson. So that is not a static list. That is an 
evolving list. As time goes on you see other things?
    Ms. Sebelius. Yes, sir.
    Mr. Matheson. OK, is it possible for that list to be shared 
with the committee or is that something that we could see on 
this committee, or----
    Ms. Sebelius. As you say, it is not a static list.
    Mr. Matheson. Right.
    Ms. Sebelius. It is a dynamic list, and it is basically 
anticipating what the next policy changes are, what happens. 
You know, we are happy to give the committee an outline, but I 
don't think there is any great secret to it.
    Mr. Matheson. OK. OK. You know, I wanted to talk about some 
of the issues that--addressed with the 834 form, or I know the 
error rate has been dropping and enrollment is increasing at 
the same time, so you kind of have these lines going in 
opposite directions, both favorable directions. But that being 
said, do you have a sense of how many enrollees may have 834 
errors that need to be addressed?
    Ms. Sebelius. What I can tell you, Congressman, is we know 
in the early days, there were a serious number of error, and we 
are in the process of actually hand-matching individuals with 
insurance companies. They have added some important personnel 
to the tech team so that they are helping to identify where the 
bottlenecks were and fixes. We are seeing a vastly improved 
system, but we want to go back and make sure----
    Mr. Matheson. Right.
    Ms. Sebelius [continuing]. That everyone who thinks they 
are enrolled in the early days is actually matched with a 
company, and that the company folks are matched on our end, and 
that process is very much underway, and a lot of fixes have 
been----
    Mr. Matheson. Right.
    Ms. Sebelius [continuing]. Added in October or November for 
the 834s.
    Mr. Matheson. And in terms of that declining error rate, 
how do you calculate that? Is that an average of all of the 
plans or is that a snapshot of the subset as you go forward? 
How do you go about figuring that out?
    Ms. Sebelius. Well, it isn't really plans. It is looking at 
the site and determining the errors that occur along the way, 
so pages that came up, or people got locked out or dumped out, 
or wouldn't accept an ID, and that has really been the roadmap 
to what really needed to be fixed and that has been a very 
dynamic process that is still underway.
    Mr. Matheson. Right. And following up a little bit on what 
Mr. Barton was asking you about some of the issues more on the 
back end, you know, I guess CBO has predicted about 6 million 
individuals are potentially going to seek subsidies, and for 
folks, not everyone is going to start up January 1. I 
understand the open enrollment period goes beyond then. But as 
these first month's premiums for the folks starting January 1 
are coming up, is there--are we going to have this system in 
place, where these subsidies and these payments at the back? Is 
the back-end system going to be structured in a way where the 
subsidy payments are going to be able to be made for this first 
month of participation?
    Ms. Sebelius. Yes, sir. They will be made and they will be 
made in a timely fashion, and they are made in a way that the 
insurers have agreed that works for them. So as the full system 
is being automated, there is a step in the early months to make 
sure that the payment to insurers, again, an individual will be 
enrolled, qualified for a subsidy. The insurer will accept a 
premium. At that point, that individual is insured, and has 
full benefits. Starting in mid-January, the insurance companies 
then receive reimbursement for the tax credit and cost sharing, 
if it is eligible for individuals, so it is a two-step process.
    Mr. Matheson. Right.
    Ms. Sebelius. One affects the individual. The second 
affects the companies, 2- to 300 companies total. We have a 
system that, again, has been signed off by them in terms of 
getting them paid in a timely fashion and we will absolutely do 
that.
    Mr. Matheson. And the subsidies go directly to the 
insurance companies?
    Ms. Sebelius. Yes, sir, not to the individual.
    Mr. Matheson. OK. And so when we hear about these problems 
about needing to build up the back end, you are saying that 
this particular component you have got----
    Ms. Sebelius. Well, there is a manual workaround, I would 
say, for virtually everything that isn't fully automated yet. 
It is in place. It just will be manual until the automation is 
fully complete and we have tested it and made sure it works. 
But in the meantime, the payment system will absolutely go 
forward.
    Mr. Matheson. OK. Thank you. I yield back, Mr. Chairman, 
thank you.
    Mr. Pitts. The Chair thanks the gentleman. I now recognize 
the vice chairman of the subcommittee, Dr. Burgess, 5 minutes 
for questions.
    Mr. Burgess. Thank you, Mr. Chairman, and Secretary, 
welcome back to committee. I may not have an opportunity to go 
through all of the things on the list. We have submitted 
questions for the record in the past. We have not received 
answers to those. So let me, again, encourage you to respond to 
previous questions and to these question, because they are 
important and constituents are asking us, in fact, constituents 
on a telephone town hall earlier this week, single mother, 
earns just over the amount so good for her. She has got a good 
job; works for a small employer; lost their insurance in the 
small group market.
    Now she is being hit with a premium, an unsubsidized 
premium for which she is not eligible for a subsidy of $1,500 a 
month for her and her child. I mean, when you were working 
through the nuts and bolts of establishing this law, did that 
situation come to mind? Were you concerned at all about that 
individual?
    Ms. Sebelius. I am concerned about all individuals having 
affordable health coverage, yes, sir.
    Mr. Burgess. Well, apparently she doesn't have affordable 
health coverage. In her opinion, she lost her employer small 
group market coverage.
    Ms. Sebelius. The employer chose to drop the coverage then.
    Mr. Burgess. Because of the expense involved with that. OK, 
you were here in April. I think it was April 18th. You had just 
received 2 weeks prior a Red Team discussion document from 
McKinsey Group. My information is that you were briefed on this 
report 2 weeks prior. That is what is listed on the final page 
of the report. Let me just play a little clip of our 
interaction from April.
    OK, that is going to take too long. Let me just tell you 
what we are dealing with. The study that the McKinsey Corp--
Group put together dealt with the readiness of HealthCare.gov. 
I was asking you about the readiness, and you replied that we 
are moving ahead. We have a Federal hub on track and on time. 
Do you recall that exchange between the two of us?
    Ms. Sebelius. I am sure that exchange took place, sir.
    Mr. Burgess. But here is the question. Two weeks before you 
were told by the McKinsey Corporation or the McKinsey Group, 
that number one, they weren't allowed--they found extensive 
problems. They weren't allowed to change the launch date. The 
thing had to launch at full volume, and that no one was in 
charge. The completed project was a moving target. So you were 
aware of all of that when you came and testified before the 
committee in April, were you not?
    Ms. Sebelius. Sir, I asked for the McKinsey Group to come 
in 6 months ahead of launch date and give us an analysis of 
their best advice. I was briefed on it and we acted on their 
recommendations.
    Mr. Burgess. You were the one who commissioned the McKinsey 
Group report?
    Ms. Sebelius. Pardon me.
    Mr. Burgess. You were the one who commissioned the McKinsey 
Group?
    Ms. Sebelius. We asked for them to come in, yes.
    Mr. Burgess. You yourself?
    Ms. Sebelius. Yes, sir.
    Mr. Burgess. Well, again, I just have to ask you, what did 
you do with that information because you weren't being honest 
with us 2 weeks later when we were talking about it in 
committee.
    Ms. Sebelius. Sir, I would disagree. We wanted the report 6 
months out to make sure that we had independent eyes and ears 
look at the readiness, look at the challenges, and we took 
their advice very seriously. I would tell you, sir, that their 
primary advice focused on the reliability of the hub. They 
thought that would be where the large number of problems 
occurred. We focused a lot of time and attention. We looked 
at----
    Mr. Burgess. And may I submit that they were actually 
accurate in that assignment.
    Ms. Sebelius. The hub has worked beautifully from start to 
finish.
    Mr. Burgess. Look, you have testified this morning that 
there is--people cannot actually make their payment now when 
they go on HealthCare.gov.
    Ms. Sebelius. No, that is not accurate, sir. I said a lot 
of people haven't yet made their payment. Their payment isn't 
due.
    Mr. Burgess. I was unable to make my payment on 
HealthCare.gov on the Federal exchange from the State of Texas, 
and I was told you can't make that payment. I have not----
    Ms. Sebelius. When you are an insurance company you don't 
pay the Federal Government. We are the sign-up site and you 
make the payments directly to the insured.
    Mr. Burgess. OK, December 23rd, you said if someone has 
worked through the process, they are going to be covered. But 
payment may not have been made, is that correct?
    Ms. Sebelius. What I said, sir, is that you have to be 
enrolled by the 23rd, and make a payment by the end of the year 
in order to be fully insured. And the insurance----
    Mr. Burgess. Who is going to guarantee that the doctor that 
sees that patient on January 4th is actually covered for that 
visit? Are you going to make----
    Ms. Sebelius. Same as they do today. You are enrolling in a 
private insurance plan. You have to pay your premium in order 
to----
    Mr. Burgess. What if that patient doesn't make the premium 
payment? You said they are covered December 23rd, but they 
never write the check. They never make the payment.
    Ms. Sebelius. Then they are not covered.
    Mr. Burgess. But they think they are covered.
    Ms. Sebelius. They are not enrolled. And at every point 
along the way on the Web site, they are told they until they 
make the payment----
    Mr. Burgess. Well, are you going to make good for those 
doctors who see those patients the first couple weeks of 
January who then have their cash flow interrupted? I will just 
tell you, for practicing, in a small practice, you get your 
cash flow interrupted for 2 or 3 weeks, that is big trouble.
    Ms. Sebelius. Well, again, if an insurance company gives an 
enrollment to a customer, they will make good with the 
provider. We tell people over and over again, they are enrolled 
when they make a payment. We turn their name over to the 
insurance company.
    Mr. Burgess. But you said earlier this morning----
    Ms. Sebelius. And that insurance company deals with their 
new customer.
    Mr. Burgess [continuing]. If they are enrolled by the 23rd, 
they are not going to be covered.
    Ms. Sebelius. Sir, not until they pay, and that is what 
every step along the way.
    Mr. Burgess. Do you know how hard it is to actually make 
that payment, pull the billfold out and actually make the 
payment? Have you done that yourself?
    Ms. Sebelius. I have not.
    Mr. Burgess. Well, I am going to tell you, it is almost 
impossible. I have never seen a business where you get to the 
point, the fundamental business transaction, you are going to 
make the payment, and you can't do it.
    Mr. Pitts. The gentleman's time is expired. Thank you, 
Madam Secretary. The Chair recognizes the gentleman from 
Georgia, Mr. Barrow, 5 minutes for questions.
    Mr. Barrow. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for being with us today. I am glad there has been 
some progress since the last time we met, but I am still 
concerned what is going to happen when the insurance that is 
mandated under that goes live at the first of the year. I voted 
against the health care bill, in large part, because I thought 
the whole thing was just unmanageably big to begin with, and I 
am worried that we have only seen the tip of the iceberg. I 
hope I am wrong about that.
    I want to ask you about other approaches toward the 
fundamental chore of trying to get folks enrolled in plans 
required under the Act. Are there other--are there other 
insurance plans out there that are Internet-based? Aren't there 
other folks who are selling health insurance on Internet-based 
exchanges?
    Ms. Sebelius. I think some of the companies haveInternet 
sites, and I know that the Esurance, eHealth brokers have a 
variety of plans available. I can't tell you how broad based 
that is, but I know a number of companies you can either sign 
up in person with an agent or broker, or sign up online.
    Mr. Barrow. To what extent were efforts made to reach out 
to such folks to try and learn from what they are doing, or to 
try and utilize the technology that they are already utilizing 
to sell health insurance on the Internet?
    Ms. Sebelius. Well, I think there was a lot of outreach, 
and a lot of conversation about what works and what doesn't. I 
would suggest that this is a unique, integrated product because 
not only is an individual identified and verified, but can 
qualify then for a tax credit and cost-sharing based on his or 
her income, can be qualified for not only the Federal 
marketplace, but Medicaid CHIP services, and in the Federal Web 
site, each plan, each State offers a different number of plans, 
each State has a different set of Medicaid rules, and each 
State has a different level of benefits.
    So it is basically an integrated system that tries to get 
you to the right place so you can make a choice.
    Mr. Barrow. Well, are private health insurance plans that 
are operating on their own Internet-based health exchanges, 
actually able to take advantage of the unique features of the 
law, the fact that you get subsidies if you are income 
eligible, the fact that there are specific packages that are 
required----
    Ms. Sebelius. Not unless they verified that information 
through the hub. No one can have----
    Mr. Barrow. Is that being done? Can it be----
    Ms. Sebelius. Yes, sir.
    Mr. Barrow. It is being done?
    Ms. Sebelius. It is.
    Mr. Barrow. Through private insurance companies?
    Ms. Sebelius. Yes, sir.
    Mr. Barrow. Who?
    Ms. Sebelius. They don't have direct access to the hub. 
They come into the hub through CMS----
    Mr. Barrow. I understand that. I understand the aspects.
    Ms. Sebelius. Well, Blue Cross Blue Shield and Web plans 
are doing this direct enrollment all over the country now that 
the site is functioning.
    Mr. Barrow. Well, the reason I ask is, if there are other 
sites, other Internet-based exchanges already functioning, it 
seems to me that it would be a very helpful approach to have 
all hands on deck in trying to do that.
    Ms. Sebelius. Well, I am sorry. To clarify, they are. The 
eHealth insurance folks are now engaged and involved. The 
broker is involved in that. The companies are directly involved 
as well as individuals navigating on their own.
    Mr. Barrow. Are you telling us that folks who would 
otherwise be able to get health insurance through 
HealthCare.gov can get their insurance through a private 
Internet-based exchange such as eHealthinsurance.com?
    Ms. Sebelius. Well, it again, has to--if they are subsidy 
eligible, they need to touch the hub and get that verified so 
that that subsidy goes forward with----
    Mr. Barrow. Who is the ``they'' that need to do that? The 
insurance companies you are dealing with or the customer?
    Ms. Sebelius. Well, sitting in the office with a broker; 
they can do it with the eHealth insurance folks; they can do it 
on their own; they can do it with a navigator. They can do it 
on the call center. So there are a whole variety of ways that 
individuals can do that. If they are not subsidy eligible, if 
they make more than $46,000 as an individual or about $92,000 
as a family, they can just go directly enroll in a marketplace 
plan with their----
    Mr. Barrow. I recognize that, but again, back to the point 
you began with, the role that HealthCare.gov is supposed to 
provide is to try and match folks up with the subsidies as well 
as the products that are out there and you are saying that can 
be done through private exchanges that exist right now. It 
doesn't have to be done through HealthCare.gov.
    Ms. Sebelius. Again, they--the subsidy eligibility which 
involves verification of income, verification of citizenship, 
verification that you are who you say you are----
    Mr. Barrow. Right.
    Ms. Sebelius [continuing]. Has to touch HealthCare.gov. 
Other than that, the enrollment process can be done in any----
    Mr. Barrow. That touching, that front door that is provided 
by a private Internet-based exchange communicates with folks in 
the back room at the government, on the government end, is that 
correct?
    Ms. Sebelius. Well, again, they do not have access to the 
Social Security database, to the IRS database, to the Homeland 
Security database, that is the piece that verifies the 
individual's eligibility, and can move them forward, but that 
is being done now by agents and brokers, by the eHealth folk, 
by a variety of people along the way.
    Mr. Barrow. Thank you, Mr. Chairman.
    Mr. Pitts. The gentleman yields back his time. Thank you, 
Madam Secretary. The Chair now recognizes the gentleman from 
Kentucky, Mr. Whitfield, for 5 minutes for questions. I would 
like to ask the gentleman from Pennsylvania, Dr. Murphy, to 
take the chair.
    Mr. Whitfield. Well, thank you, Mr. Chairman, and Madam 
Secretary, thank you for being with us. Mr. Waxman admonished 
us to treat you with respect, and I think that certainly, we 
should do that, and we want to do that. But I will tell you, my 
very first concern is with the constituents that we represent. 
And some people have said that we are simply trying to put 
obstacles up for the successful implementation of this Act. And 
I can tell you for myself and many others, we are here because 
our constituents are genuinely concerned and upset about what 
is going on. And a lot of it begins with the way this bill was 
passed.
    When it came to the floor, the most comprehensive change 
for health care in America that has ever been undertaken, no 
one could offer one amendment to the bill. And I would--so 
there are very deep feelings about this still, and many health 
care experts today say that we are going quickly to a two-
health care system. We are going to have one health care system 
for wealthy Americans, and then everyone else is going to be 
under the Affordable Care Act.
    And that is exactly what has happened in other countries 
that have gone down this path. Now, when this legislation 
passed, your office was given immense powers and decisionmaking 
authority, and we know that many regulations have been written.
    Could you tell me how many pages of regulations have been 
written to implement this Act?
    Ms. Sebelius. Sir, I can get you that number. I do not 
know.
    Mr. Whitfield. Do you have any idea?
    Ms. Sebelius. I don't know how many pages.
    Mr. Whitfield. Do you have a range?
    Ms. Sebelius. I would like to get you accurate information.
    Mr. Whitfield. I mean, is it 100 pages, or----
    Ms. Sebelius. Sir, I will get you information.
    Mr. Whitfield. So you don't know.
    Ms. Sebelius. I just told you, I don't know.
    Mr. Whitfield. OK. Now, the President went all over the 
country talking about how this is going to save money, people 
are going to have lower premiums. And I can tell you, those of 
us on the Hill who have been going on the DC health exchange, 
have discovered that our premiums are certainly much higher 
than they were, and when we talked to our constituents going on 
the exchanges, we are discovering that the majority of them, 
their premiums are much higher. And my understanding, OMB has 
said that the subsidy will cost the taxpayers over $1 trillion. 
We have been told that--I am sorry?
    Ms. Schakowsky. Will save.
    Mr. Whitfield. Will save? Well, the subsidy will cost the 
taxpayers $1 trillion. Somebody has got to pay for it. And I 
would also like to ask you a question because of what is 
perceived as a real inequity in this system, how some people 
are being favored, other people are not being favored.
    When you go to the rotary club and speak, and people ask 
you, do you have to go on to the exchange? Does the President 
have to go into the exchange? Do the political appointees have 
to go onto the exchange? And you say no, does that--do you 
think that is fair that the rest of the American people have to 
go under this exchange, but you and the people in the 
President's--in the executive branch of the government do not 
have to go on the exchange?
    Ms. Sebelius. Well, sir, I would tell you that the vast 
majority of Americans with insurance also will not be on the 
exchange; 177 million people have----
    Mr. Whitfield. But I am asking about you.
    Ms. Sebelius [continuing]. Employer-based coverage. It is, 
as I said to this committee, in October, illegal for me to go 
on to the exchange. I misspoke slightly because the reason it 
is illegal for me, which I knew, is I am an old lady. I am 
Medicare eligible. It is illegal for a company to sell me a 
policy because----
    Mr. Whitfield. You don't have to go under Medicare, though.
    Ms. Sebelius. I am not allowed to be sold a policy in the 
private market, if you are over 65, and I am.
    Mr. Whitfield. Thank you for your comments, but the bottom 
line is the executive branch of government does not have to go 
on the exchange. Everyone else does have to go on the exchange.
    Now, in addition to the $1 trillion that the taxpayer is 
going to pick up on the subsidy, they are going to pick up 
another $710 billion because the President agreed that the 
Federal Government would pay more of the State Medicaid cost.
    Ms. Sebelius. Sir, that is fully paid for in the health 
care law, and in fact, CBO has estimated that it reduces the 
deficit----
    Mr. Whitfield. It is fully paid for by the taxpayer 
dollars, by general fund dollars.
    Ms. Sebelius. Unlike Medicare Part D this actually, this 
bill was paid for----
    Mr. Whitfield. And then let me just tell you this. The 
President said that everyone's premiums would be free. The 
President said that people would be able to keep their plan. 
The President said they would be able to keep their doctor. It 
is turning out that that is simply not the case, and so there 
is a lot of frustration, and we are upset about it, and my time 
is expired. So thank you.
    Mr. Murphy [presiding]. Thank you. The gentleman's time is 
expired. Ms. Schakowsky, you are recognized next for 5 minutes.
    Ms. Schakowsky. Let me clarify some things using the 
Dingell yes-or-no strategy. Is it not true that the 
Congressional Budget Office said that 8 out of 10 Americans who 
will go to the marketplace, will qualify, should qualify for 
assistance?
    Ms. Sebelius. I think that is true.
    Ms. Schakowsky. And yes or no, is the Affordable Care Act 
paid for? I know you referred to that, but if you could explain 
that.
    Ms. Sebelius. It is paid for, and in fact, again, the 
Congressional Budget Office estimates that it will reduce the 
deficit in the first 10 years by about $120 billion and then 
over the next 10 years, reduce it closer to $1 trillion. So 
defunding, or delaying, or repealing the Affordable Care Act 
actually adds to the deficit.
    Ms. Schakowsky. And isn't it true that many of the people 
that have gotten these letters about the cancellations will be 
able to go to the marketplace and find something better, or at 
least as good?
    Ms. Sebelius. Well, again, in the individual insurance 
market, which is what we are talking about, the plans change on 
a very rapid basis, are constantly refreshed. So having a plan 
cease to exist is not a novel idea. There are a significant 
percentage of people who will be grandfathered in, have the 
same plan they had in March. They don't change at all.
    For others, they will have choices, many of them that they 
never had before, both to get some assistance, financial 
assistance if they don't have affordable coverage in their 
workplace, get some financial assistance paying for health 
coverage, but also be able to choose in a competitive 
marketplace and not be locked out because of a preexisting 
condition; not pay 50 percent more because they are a woman; 
not be worried about being dropped or kicked out if they get 
sick down the road.
    Ms. Schakowsky. You know, we have been going by anecdote, 
and so I wanted to just read you a letter that I got. I am 
going to contribute to the anecdote pile from Jeanine and Jeff. 
It says: ``Since so much of the Affordable Care Act debate has 
focussed on anecdotes instead of the many benefits, such as not 
denying coverage for preexisting conditions, and coverage for 
young adults under 26, we thought we would share with you our 
positive experience with the Web site. Like many American 
families, our young adult children asked for help reviewing the 
options and making the health insurance decisions while they 
were visiting us over Thanksgiving weekend. We went to 
HealthCare.gov and it worked. Not only did the Web site work, 
but it was easier to navigate and faster than the Web sites of 
the private-sector health insurance companies. The other good 
news is that our daughter, Erica, is pregnant with a baby due 
in March of 2014. Her current health insurance policy is 
expiring on December 31st, and were it not for the Affordable 
Care Act, it is unlikely that a woman who is 6 months pregnant 
would have been able to obtain health insurance at all. The ACA 
is helping her just when she needs it the most.''
    I have two others that I would actually like to submit for 
the record, positive stories that I am getting.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Schakowsky. We are getting more and more of those 
stories, and I just want to say to you, Madam Secretary, I am 
absolutely confident that the role that you played in bringing 
affordable health care to millions, tens of millions of 
Americans, will go down in history as one of the great 
achievements of our country throughout its entire history. And 
I just want to thank you for that. I understand and fully agree 
that the rollout was, you know, is unpleasant, and as horrible 
as it could have been, probably, but by the new year, and into 
the new year, we are going to find all of these stories.
    My understanding is that 39 million people went to the--
either State or Federal Web sites during November. Is that 
true?
    Ms. Sebelius. I think that is accurate. We know we had, at 
least at the Federal Web site, 5 million visitors in the first 
6 days of December.
    Ms. Schakowsky. And what do you think that indicates?
    Ms. Sebelius. Well, as we have seen all along there is 
tremendous interest. There is now a very updated and easy-to-
use anonymous shopper that will give people information before 
they go on and enroll, and what we are seeing is people coming 
back several times. This is an important decision. It is 
important for them and their families. And visiting the site, 
they are eager for information, and they are desperate, many 
people, for affordable health coverage that they have never had 
before in their lives.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Murphy. The gentlewoman's time is expired. I now 
recognize the gentleman from Illinois, Mr. Shimkus, for 5 
minutes.
    Mr. Shimkus. Thank you, Chairman. Thank you, Madam 
Secretary. I am going to try to be nice, and polite, and kind. 
And it is difficult because we are frustrated because we really 
want to get some of the truth out. Last Congress, you 
testified, and to me, and to this committee, that we actually, 
we double counted the $500 billion; $500 billion was counted to 
preserve Medicare; $500 billion went to--was credited to pay 
for Obamacare. You admitted that. So you can't tell us that 
this is paid for when we double counted $500 billion. I just 
want to put that on the record. And as for the amounts of 
enrolled, in Illinois 1,300 have enrolled in a plan, 1,300. 
Twenty times more have enrolled in Medicaid. And this Medicaid 
explosion, either--that are enrolled fraudulently, or enrolled 
through woodworking, or enrolled through the new expansion are 
going to kill the States.
    Madam Secretary, when Amazon.com records a book sold, they 
record a book sold by based upon someone who has paid for it, 
not what is in their shopping cart, and not what is on their 
wish list. So our concern is this 364,000 number is fraudulent, 
because it is not those who have purchased plans yet. And so I 
would ask that when you return, that you give us actually who 
has purchased plans. Do you understand our frustration with 
that?
    Ms. Sebelius. Sir, as you well know, we did not take over 
the private insurance market. People will purchase plans.
    Mr. Shimkus. But you are telling us that those who--just 
shop are enrolled.
    Ms. Sebelius. I told you, sir, who is enrolled.
    Mr. Shimkus. OK, that is why we are frustrated, because we 
just don't get the truth out of you.
    Ms. Sebelius. This isn't Medicare, and we don't have to 
enroll in a government plan.
    Mr. Shimkus. Let me go to my next question. Let me go to 
the next question. I had my phone on, and when my phone rang, I 
left it on because I wanted to talk to a Democrat State Senator 
from my State of Illinois, who is on the insurance commission. 
And he said, and I quote, ``Mandated preventive services are 
laid directly on premium prices.'' Now, so it is--you cannot 
say, as you had numerous times, that these preventative care 
services are ``free of charge,'' can you?
    Ms. Sebelius. They are free to the consumer, yes, sir.
    Mr. Shimkus. There is no free lunch, Madam Secretary. If 
the premium is increased because of the mandated coverage based 
upon a State Senator from the State of Illinois, a Democrat, 
who is in oversight of the insurance of the State of Illinois, 
and he says, when you mandate coverage, it is rolled directly 
on premiums. As premiums increase, that is paying for these 
services. You cannot say that these are free of charge.
    Ms. Sebelius. Again, consumers will not have a copay or 
deductible. And I think that----
    Mr. Shimkus. Will you admit they will have a higher 
premium?
    Ms. Sebelius. Sir, no, I do not. I think what a lot of 
actuaries----
    Mr. Shimkus. OK, all right.
    Ms. Sebelius [continuing]. Will tell you is if you have 
preventive care, and prevent a more costly hospital stay, 
cancer episode, down the line, that actually lowers the 
premium. It doesn't raise it.
    Mr. Shimkus. All right, I got it. We are just going to 
agree to disagree. It is like talking to the Republic of Korea 
or something. Last question.
    Ms. Schakowsky. Mr. Chairman, you have to let----
    Mr. Pallone. Mr. Chairman, you have to let--we said in the 
beginning----
    Mr. Shimkus. I do not have to----
    Mr. Pallone. We said we were going to let the Secretary 
answer the question.
    Mr. Shimkus. The gentleman controls the time. If the 
Democrats want to yield some time----
    Mr. Pallone. I know, but you have to leave her the 
opportunity to answer the question.
    Mr. Shimkus. I do not have to allow her----
    Mr. Pallone. Yes, you do. We all agreed on that at the 
beginning. You have to allow the Secretary answer the question.
    Mr. Murphy. The gentleman will suspend. The gentleman will 
suspend. Give the Secretary time to answer questions.
    Mr. Shimkus. Last question. Madam Secretary. Through the 
great work of Congressman Chris Smith, we know that of 112 
plans offered to congressional employees, and Members, only 
nine offer--nine policies exclude abortion coverage, and I have 
his flier that he handed out to us.
    Madam Secretary, you promised last time you were here, that 
you would provide me a National list of those who cover and 
those who do not cover abortion and abortion services. We have 
yet to receive that list. Now, folks are shopping now, and I 
will tell you, when we went through this last time, we received 
a call from my office, from someone in the country, who was 
pro-abortion thanking me for that question, because they want 
to know. We need that list, Madam Secretary, and if they are 
shopping today, we need that list today. When will you provide 
that?
    Ms. Sebelius. Sir, every plan lists planned benefits and 
the one plan benefit that they must list by law is abortion 
services. So as a shopper goes on, I would highly recommend 
that they look in the plan benefit section. Check for the 
coverage they are interested in.
    Mr. Shimkus. OK, the last time I was here I held up 
numerous policies that were not explaining that. In essence, 
you promised to provide the list of those insurance plans. All 
we are asking is for you to keep your promise.
    Ms. Sebelius. It is the summary of benefits and plans. I 
guess we could go on----
    Mr. Shimkus. Will you provide us a list?
    Ms. Sebelius. I will ask the----
    Mr. Shimkus. You promised the last time.
    Ms. Sebelius. Sir, it is on the Web site.
    Mr. Shimkus. Will you promise--if it is on the Web site, 
can you provide it?
    Ms. Sebelius. It is available.
    Voice. Regular order.
    Mr. Murphy. Madam Secretary, were you going to answer the 
gentleman's previous question?
    Ms. Sebelius. Pardon?
    Mr. Murphy. Were you able to completely answer the question 
that the gentleman asked prior?
    Ms. Sebelius. I assume so.
    Mr. Murphy. OK, thank you. Mr. Green of Texas is recognized 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Madam Secretary, thank 
you for being here and taking time to testifying. First of all, 
let me give a little history lesson. And I know my colleagues 
are upset that this bill was passed at night, the Affordable 
Care Act in 2010. I was here in 2003, and the prescription drug 
plan did also not allow amendments on the floor of the House, 
and I remember walking out of the front of the Capitol and 
seeing the sun rise from the east that morning on a 
prescription drug plan. So we were there all night. So you can 
dislike the law, but you can't say because it was passed at 
night or that there were no amendments on the floor, you did 
the same thing as the majority and that is not uncommon for 
comprehensive bills that we have on the floor.
    Mr. Burgess. Will the gentleman yield?
    Mr. Green. No, I won't yield. I only have 5 minutes. The 
other issue is, the reason that the administration is not 
covered on the exchanges, any employer, or employee who has 
employer-based insurance, doesn't need to go to the exchanges. 
Now, Members of Congress are the exception of our own doing. It 
was part of the bill that came from the Senate. And believe me, 
I disagree with a lot of the things that the Senate put in that 
bill, and I know my ranking member and I both have some issues 
with the way the law is now and we would like to change it.
    But the House bill, we had hours and hours of amendments in 
this committee. I had 30 amendments on my own, and a number of 
them were bipartisan that were adopted by voice vote. So our 
committee had plenty of time to debate this bill. We did that 
to prescription drug plan, too, because I was here in 2003. We 
had a lot of committee amendments, but not out on the floor, 
and we didn't have one on the floor either. But let me get to 
my questions.
    First of all, since the launch of the exchange on October 
1st and problems with HealthCare.gov Web site are glaring and 
unacceptable, and I know you took responsibility for it along 
with the President. I am pleased that we have seen a great deal 
of progress made since then, and I hope that we continue to see 
success in the area, and that the Affordable Care Act can 
deliver on its promise to make coverage available and 
affordable to Americans who are stuck with unfair and unstable 
individual market health care, the insurance market. But that 
market is still available even though in a lot of cases that is 
why the Affordable Care Act was needed. It was broken. What 
fixes are still need to be made to make the experience of 
purchasing health care on HealthCare.gov easier for consumers?
    Is this an onward process that you are learning every day, 
I hope? Because in business, we learned every day that fix--
serve our customers.
    Ms. Sebelius. We are definitely learning every day, 
Congressman, and I would say since I was here last, the greatly 
improved anonymous shopper feature is on. We just added today, 
the automated Medicaid transfers recognizing that some States 
are not able to accept them in an automated fashion, so we will 
do both. We have added Cuidado de Salud which is the Spanish 
version of the Web site experience that rolled out last week.
    We are in the process, as I said, of building the financial 
management, but each and every day we learn something from 
consumer experience. It is a process where each week we are 
adding fixes, identifying problems, and will continue to do 
that. This is a first-of-a-kind product, and we are going to 
continue to make the experience more smooth for consumers.
    Mr. Green. Well, and it is important for the Web site to 
work. Because in the middle of November we had an event in 
Houston where we had 800 people show up on a Saturday morning, 
and we used paper applications. That is my next question. The 
400 or so people who filled out those paper applications in 
that 4 hours on a Saturday morning, how are they being dealt 
with through the exchanges?
    Ms. Sebelius. Well, sir, we have a number of people who 
used paper applications early on or PDF applications, and we 
are recontacting each and every one of those people, offering 
them either somebody to help them walk through the Web 
experience, or inviting them to do it themselves so that is 
very much underway on a casework basis. We want to make sure 
that anybody who filled out a paper app is actually welcomed in 
the system and gets through the process by the 23rd if they 
want coverage January 1st.
    Mr. Green. Well, I think it is interesting though, because 
my colleagues objected to the marketplace. But you know, the 
marketplace was actually a compromise in the Senate. You know, 
the House bill that passed did not--we had an exchange, but it 
was separate because we also a public option on that exchange. 
So it is only market-based. And when I went on to buy our 
insurance, and I agree with my colleagues, my insurance has 
gone up. Like you, I am over 65. And you rate wife and I, we 
are going to pay higher premiums. We did have trouble even 
through the one for the Members of Congress. But most of the 
people in our country are not going to deal with the exchange 
because if their employer continues to provide their coverage, 
they don't have to worry about this. And I can also say that I 
have had dozens and dozens of seniors because of all of the 
misinformation out there, who are confused, who have Medicare. 
And say, I am concerned about my Medicare. Well, Medicare has 
only been benefited by the Affordable Care Act. And again, 
thank you for your time.
    Mr. Murphy. The gentleman's time is expired. I now 
recognize myself for 5 minutes. First of all, Madam Secretary, 
thank you for being here, and I also want to thank you for 
getting the mental health parity regulations done. Those are 
very important and you put a lot of work into it. Thank you. 
And there is more work we all have to do on mental health 
issues, and I would welcome an opportunity to meet with a 
number of us to talk about some of the things we need to do to 
help mental health in America. And I appreciate your dedication 
to this. I also want to thank you for this analysis. It is 
helpful for us to really see some breakdowns of what is taking 
place with regard to the States and the marketplace. I want to 
ask some clarifying questions to see if you know or if you can 
find out on this.
    Of those who have signed up, you have a list of those who 
signed up for Medicaid and CHIP marketplace. Do we know how 
many were previously eligible for Medicaid? Not those that were 
added on who were previously eligible. Do we know that number?
    Ms. Sebelius. Sir, I don't know those numbers and we are 
trying to get those numbers at the State level. Again, we know 
that a lot of people even in non-expansion States have come 
forward and now are presenting themselves as Medicaid eligible. 
But how--what is the old rules and what are the new rules, we 
are getting that number from the States.
    Mr. Murphy. Will you be able to find out that amount? So we 
had the previous level and now it is up to 133 percent of 
income or whatever it is in various States. It would be nice to 
know how many were previously eligible and just never signed 
up.
    Ms. Sebelius. Right.
    Mr. Murphy. And how many are newly eligible and signed up. 
Thank you, if you can get us that information.
    Ms. Sebelius. Yes.
    Mr. Murphy. Also, in terms of the analysis of the data 
which is very important, of those who have----
    Ms. Sebelius. Sir, and I am sorry, can I interrupt one 
second?
    Mr. Murphy. Yes.
    Ms. Sebelius. There is actually a third category. We know 
that there are people who are currently enrolled in Medicaid 
who are sort of reenrolling.
    Mr. Murphy. Yes. Yes.
    Ms. Sebelius. So they are not new to either category, but 
they actually are renewing.
    Mr. Murphy. Precisely, yes. We would like to know that.
    Ms. Sebelius. And they are part of that, to look at that 
three-way breakdown.
    Mr. Murphy. The renews previously eligible but didn't sign 
up and newly eligible. Thank you.
    Ms. Sebelius. Yes.
    Mr. Murphy. Also, of those who have gone to the 
marketplace, the Federal and State marketplace but are not 
Medicaid, how many were previously uninsured but are now 
covered? Let me roll these out. How many were insured but had a 
plan canceled so they are covered? Do we have that kind of 
information? Is that things that we are able to get?
    Ms. Sebelius. We may be able to get some of that from the 
insurance companies. We would not collect that specific 
information, sir.
    Mr. Murphy. And people are talking about whether or not the 
policy cost them less or more. Obviously, it is critically 
important to have the facts on this. Is there a way that your 
office, or is there anything built in where we can actually 
find out how many people are paying more, how many people are 
paying less?
    Ms. Sebelius. Again, we will rely on companies because we 
are talking about formerly insured to----
    Mr. Murphy. They may switch a plan.
    Ms. Sebelius. They may switch a plan. They may have paid 
something, but that is really going to be company data, not 
data that we would have. No one newly insured would have that 
comparison so it is---
    Mr. Murphy. We have heard different opinions and it would 
be great if we had facts on this so that would be helpful. And 
of the demographics, when I talked to some people who were 
insurance brokers or agents, they are describing that many of 
those who are signing up are people who may have had some 
health problems, have seen some high costs already, and they 
are going to the marketplace to find some of the cost. And 
there is also groups who may be healthy, and they are seeing 
some price changes there, too. Obviously, if the health care--
if the Affordable Care Act was designed to help those sign up 
who are not able to afford health insurance before, or who are 
having difficulty because they had some illness, will we have 
breakdowns based upon those factors?
    Ms. Sebelius. Again, we will be able to tell you hopefully 
in the not too distant future, demographic breakdowns. Because 
we don't collect personal health information from anyone 
because there is no longer a preexisting condition, nobody is 
medically underwritten anymore which everybody was in the 
individual market. We won't be able to tell you who of the 
population is sick, or not sick.
    Mr. Murphy. The next item is the question on the 
questionnaire, the Federal questionnaire which asks people if 
they have a condition of a disability or mental health problem, 
or emotional problem. I guess we could look at that data if 
people would check that box it would tell us something.
    Ms. Sebelius. For Medicaid eligibility, sir, there is a, I 
think a question on pregnancy, and a question on disability.
    Mr. Murphy. Yes, yes.
    Ms. Sebelius. And those are the only two questions because 
that may qualify someone of a different income category for 
Medicaid. So those are the only two, I think, health 
information that is collected, but we don't have personal 
health information collected.
    Mr. Murphy. OK, we will need to get those facts. You had 
mentioned you asked McKinsey about the readiness of the 
exchange for the October 1 launch. Did the White House 
encourage you to ask this, or was that a decision you made on 
your own?
    Ms. Sebelius. We made the decision going forward.
    Mr. Murphy. And why was that?
    Ms. Sebelius. I think it is prudent to invite people who 
have not been directly involved with building a product to take 
a look at their--get their assessment on how things are going, 
what the problems are, and do it enough in advance that 
hopefully you can take their advice.
    Mr. Murphy. I would love to know from you and follow up 
with you, what changed because of that report. Let me ask this: 
The President said that if people have suggestions to improve 
what is going on, he would like to know. I am wondering, you 
have been immersed in this for quite a while. Are there some 
recommendations you have for Congress of what we need to do to 
take care of some of the problems we are facing?
    Ms. Sebelius. Well, I certainly think that we will know a 
lot as we complete this first year of open enrollment. I would 
love the opportunity to come in and discuss those with this 
committee and others. We are--this is, as you know, the final 
phase of the 3.5-year implementation that has been underway, 
and I would say that we know a lot about young adults that we 
didn't know then. We know a lot about some of the preventive 
care issues. As you say, mental health is going to be a part of 
this. So I think we will have a list to actually share with 
you, and we would love to work in a bipartisan fashion to 
actually fix the bill.
    There is no question that a brand-new bill, you know, will 
take some amendments and hopefully move forward, but I would 
welcome that opportunity.
    Mr. Murphy. Thank you. My time is expired. I now recognize 
the gentlelady from Florida, Mrs. Castor for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman. And Secretary 
Sebelius, I am very pleased to see all of the progress that is 
being made with HealthCare.gov. Reports from consumers, and 
recent enrollment numbers suggest that individuals using the 
Web site to obtain quality affordable health insurance are 
having a much smoother and more successful experience. Thank 
goodness.
    Reading over the statistics from the new report, I was very 
surprised that the State of Florida is leading enrollment out 
of all of the States on the Federally-run exchanges because we 
have had so many political roadblocks. There has been so much 
misinformation. This is good news for Floridians and it makes 
me wonder what if the Web site had been working great right off 
the bat? These would probably be doubled. So I know families 
and individuals have more time. We really want to push over the 
next few weeks, but you said they have 3.5 months?
    Ms. Sebelius. That is correct, Congresswoman, and as you 
know, because you have been a key part of this, I think the 
assistance of not only key Members of the congressional 
delegations throughout Florida, but mayors, civic leaders, 
health care providers, navigators, assisters are stepping up 
and really getting information to people who desperately need 
it. Florida has one of the highest numbers of uninsured 
Americans in the country, and clearly, people are eager for 
information and welcome the opportunity to make some choices 
for themselves and their families that they have never had 
before.
    Ms. Castor. In fact, I had one report yesterday that a 
local enrollment fair at a church, they signed up 50 
individuals on Sunday. And then I have this email from the 
Tampa Family Health Centers, the two stories. Juana Rodriguez, 
a 63-year-old woman who has been without health insurance for 3 
years stated: What a blessing to finally have insurance. She 
said this with a smile and replied how she was finally able to 
afford her medications for a preexisting condition. Her tax 
credit is $530, and she purchased insurance for just $35 a 
month. And then Robert Welch, a 29-year old single young man 
who had no insurance for the past few years. He works for a 
small business, and his employer was not able to afford private 
insurance. He was able to get a tax credit for $2,200. And his 
premium is $28. He was extremely pleased, and agreed to share 
his story, but he said he was too shy to speak in public. So 
Robert. We are sharing your story today, and I am grateful that 
now we can replicate his good-news story. But we have a long 
way to go.
    Now, on his small business question, it--we are all a 
little bit disappointed that the shop, the small business Web 
site is not going to be up and running as early as we would 
have liked, but does that affect the tax credits that are 
available for small business owners, those tax credits that 
encourage small businesses to provide health insurance, or to 
help make it more affordable for their employees?
    Ms. Sebelius. No, Congresswoman, it will not impact that. 
As you know, we had earlier suggested that at the Federal 
level, and this is different in some of the States, but at the 
Federal level, year one we would not be able to aggregate 
premiums and give employees of businesses under 50 a choice. 
That will happen in 2014. The tax credits are very much in 
place. We have, again, a process where we are working with 
agents and brokers which is a way that small business owners 
have gotten coverage traditionally.
    Ms. Castor. And their accountants, because some are not 
very sophisticated. There are three or four employees, 
especially in a tourism field State. You know, a lot of 
restaurant owners.
    Ms. Sebelius. But the tax credit this year will go to a 50 
percent tax credit for eligible employers. It is a tax credit 
that did not exist before the Affordable Care Act. It has been 
at 35 percent. It rises to 50 percent, and we will absolutely 
be enrolling. We have thousands of applications for shops. We 
are working to get folks enrolled and shop is different than 
the individual market where business owners have a 12-month 
enrollment period because of the timing of plans, so shop 
owners, or small business owners will be able to enroll each 
and every month as their employee insurance comes up for 
renewal.
    Ms. Castor. OK, and then they file for the tax credit when 
they file for their----
    Ms. Sebelius. That is correct. In 2015, they would be 
eligible for that.
    Ms. Castor. So planning now, if you are a small business 
owner looking into that, because I don't think that many small 
businesses understand that a very robust tax credit that is 
growing from 35 percent to 50 percent, might make a huge 
difference.
    Ms. Sebelius. And the Small Business Administration has 
been a terrific partner in that effort. They are using their 
channels to do a lot of outreach and education.
    Ms. Castor. Thank you very much.
    Mr. Pitts [presiding]. Thank you, Madam Secretary.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Lance, 5 minutes for questions.
    Mr. Lance. Thank you very much, Mr. Chairman. Good morning 
to you, Madam Secretary.
    Ms. Sebelius. Good morning.
    Mr. Lance. My questioning will be in two parts. First, 
regarding the rule of law, and second, regarding the Medicaid 
expansion. Regarding the rule of law, I will be going into an 
exchange, if that is how I read the statute, even though I 
didn't vote for it, and hope that it is replaced, and those who 
work with me in our office will be going into the exchange. And 
I would urge other Members, for example, Senator Reid, that as 
I read the statute, that is the rule of law.
    In answer to Ranking Member Waxman, you indicated, and I 
certainly agree with this, that the President decided on the 
transition policy even though the statute, as I read it, has 
requirements that begin on January 1st, 2014.
    From your perspective, Madam Secretary, what is the 
statutory authority for the President to have announced the 
transition policy?
    Ms. Sebelius. Sir, I think the statutory authority is the 
enforcement discretion which is available under the law to us, 
and the President has asked us to use our enforcement 
discretion to not pursue penalties against insurers who would 
voluntarily decide to allow a transition of individuals in a 
market plan to continue in that market plan. This defers to 
State regulators. They get the first call because they regulate 
the marketplace, and then insurers, there is no mandate to 
insurers. It is voluntary, but it allows them to take up that 
option.
    Mr. Lance. Thank you. So from your perspective, the ability 
of the President to do that is based upon enforcement 
discretion. I respectfully disagree with that. Thank you for 
answering the question.
    Number two, and Mr. Barton did raise this, as I read the 
statute, there are subsidies for State exchanges, but not 
subsidies for the Federal exchange, and I presume that that was 
placed into the statute to encourage States to have their own 
exchanges; a carrot-and-stick approach. From your perspective, 
Madam Secretary, what is the statutory authority for permitting 
subsidies for the Federal exchange?
    Ms. Sebelius. Again, sir, I am not a lawyer, and I would 
defer to the Department of Justice for the statutory authority. 
I think the framework is that I am mandated by statute to pay 
the subsidies, and that I think the interpretation is both by 
the OMB, which is sort of the appropriation leader on this, and 
the Department of Justice that the authority is consented to 
even though it is not explicitly spelled out. But again, I am 
not the lawyer. I would defer to them.
    Mr. Lance. Thank you. Let me state, it is my legal position 
that the courts will rule against the administration in this 
regard, and obviously, this is now before the courts. In the 
3.5 years since the ACA's passage, has the President ever 
proposed a legislative change to any aspect of the law?
    Ms. Sebelius. Sir, I am trying to refresh my memory. I 
cannot answer that question, but I will----
    Mr. Lance. Certainly.
    Ms. Sebelius [continuing]. Come back with an answer.
    Mr. Lance. It is my understanding that the President has 
never asked for any statutory change whatever, and he has 
made----
    Ms. Sebelius. Well, I can tell you one that I do recall 
that I think has been in his proposals. We do have a provision 
involving State waivers of Medicaid expansion and then into the 
marketplace that is timed to start at 2017. He has suggested, 
and I think it is part of our budget proposal, that there 
actually--that date be accelerated so that States would have 
full authority. There are other provisions I think in our 
budget plan, not necessarily pieces of legislation, but coming 
through that way that we could get you enumerated.
    Mr. Lance. Thank you. And then finally regarding the 
Medicaid matter, I have great concerns that many who have 
signed regarding Medicaid expansion were eligible before, and I 
know you are not able to provide those figures today, but I 
would like, at an opportunity that is convenient for you, Madam 
Secretary, to have those figures because it is my belief that 
quite a few are--were already Medicaid eligible, and are not 
based upon the new law.
    Mr. Pitts. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Maryland, Mr. Sarbanes, 5 
minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I thank you Madam 
Secretary, for being here. You have been very stoic in the face 
of a lot of adversity over the last few weeks. You have 
accepted responsibility for which you, yourself, characterize 
as a failure in the launch of the Web site, but have obviously 
been aggressive in trying to improve the situation. The 
evidence that you presented today suggests that things are on 
the mend, and a lot more Americans are being able to access the 
government Web site which is the portal to affordable health 
care for them.
    I think if you step back, the bigger story here is just 
there were previously millions of Americans who were 
essentially trapped in a world where they could not access 
health care. There was literally no options available to them. 
If they had a preexisting condition, even the substandard plans 
that were offered in individual market often did not provide 
any option for them.
    So they didn't even have the opportunity to complain or 
face the challenges that now some of them are facing. But the 
fact that they are trying to access an option of affordable 
care, and yes, encountering some difficulties in having to push 
through those, et cetera, even that is progress, because before 
they didn't even have that chance. But I think it is important 
for us to keep that in perspective, and that is why, I think 
you said earlier, I heard someone say that, or maybe it was 
Chairman Waxman, that one of the common emotional responses for 
people when they actually can enroll is they break down in 
tears, because of their years of pent-up frustration, and not 
being able to access affordable care.
    Ms. Sebelius. Well, Congressman, we know that again, in the 
individual market, which is the market that the new 
marketplaces are addressing, a large number--national studies 
show that it could be as many as 25 percent of people who tried 
to buy a plan were turned down totally. So no plan, at no 
price.
    Mr. Sarbanes. OK, right.
    Ms. Sebelius. And then you have people who were 
individually medically underwritten, virtually everyone in the 
marketplace. And that is very beneficial if you are healthy and 
don't have any likelihood of a preexisting condition, and 
typically, if you are male. It is not very beneficial if you 
are not. And if you get sick along the way, or if you are 
diagnosed, you could be, again, medically underwritten going 
forward to eliminate the condition that you need the care for.
    Mr. Sarbanes. Right.
    Ms. Sebelius. So the choices were somewhat limited to a lot 
of people.
    Mr. Sarbanes. The promise of this is to create a new normal 
for the American people where the option of getting health care 
is real, and that wasn't the way it was before for tens of 
millions of Americans.
    Ms. Sebelius. Depending on where they worked. If you worked 
for a company, and the vast majority of large employers 
offered----
    Mr. Sarbanes. Then you had the access.
    Ms. Sebelius. And you weren't medically underwritten and 
you weren't penalized based on age, you were in as long as your 
employment. But if you worked for yourself, if you were an 
entrepreneur, if you were a service worker and didn't have 
affordable coverage your options were greatly----
    Mr. Sarbanes. But even that system is going to be more 
rational going forward because as you eliminate discrimination 
based on preexisting conditions, you address the problems of 
portability that we saw before when somebody leaves one 
employer and goes to the next, those are all fixes that are 
going to improve the employer-based system as well.
    In terms of the challenges, obviously the launch of the Web 
site was much more difficult than was expected, but there were 
always going to be challenges. There are going to be new 
challenges, there are things, you know, you look around the 
corner, there are going to be difficulties and challenges 
associated with some of the payment issues that are going to 
happen down the line. These were always going to be there. 
There were always going to be difficulties. This is a major, 
major structural change to the health care system which is 
going to improve it eventually, but we have to anticipate that 
there are going to be difficulties and we have got to soldier 
through those. That is the American ethic, right, is you take 
challenges and you overcome them.
    And then the last time comment I just wanted to make is I 
think one of the issues is that a lot of the people who are 
coming and finding new plans and maybe they have to pay a 
little bit more or maybe the deductible is higher in some 
instances, for example, but what they don't compare it against 
is the exposure they had under the old plans that maybe they 
never had the occasion to experience and so that is the apples-
to-apples comparison we have.
    Mr. Pitts. The gentleman's time is expired. We have 15 
minutes left. We have seven members still to ask questions. We 
will go to 2 minutes per member. The Chair recognizes Dr. 
Cassidy from Louisiana for 2 minutes for questions.
    Mr. Cassidy. Thank you Madam Secretary. In your answer to 
Mr. Shimkus, did you really mean to say that the Affordable 
Care Act has not resulted in increased premiums for the 
nonsubsidized?
    Ms. Sebelius. Sir, what I said is preventive care----
    Mr. Cassidy. No. No. Are premiums higher----
    Ms. Sebelius [continuing]. Doesn't add to the cost of 
premiums overall in terms of the long-term health care costs. 
That is what our description was.
    Mr. Cassidy. So you are ascribing it to the preventive 
health care aspect.
    Ms. Sebelius. That is what he asked me, that is what I 
answered.
    Mr. Cassidy. Now, Jonathan Gruber, one of the architects of 
this bill, has said that this bill is basically income 
redistribution. Now obviously though the taxes that are a 
trillion over 10 years but there is also the increased premiums 
people are paying for their policies if they are not 
subsidized.
    Do you have an estimate of how much increase, what is the 
amount of increased taxes people--excuse me, increased premiums 
people are paying to subsidize others on the exchange?
    Ms. Sebelius. No, sir, I don't, and I think you can only 
talk about increased premiums, and I think Dr. Gruber would be 
one to suggest that if you compare like benefits to like 
benefits----
    Mr. Cassidy. Let me go on. Danny from Baton Rouge is losing 
his coverage. He says that this is my apocalypse now. The 
company I have, my family coverage went up 371 percent. Monthly 
premiums for a family of four from $245 a month to 913 with a 
$4,000 deductible. Wow, I think Danny would like to choose his 
benefits as opposed to that.
    Many small businesses, according to your office, are going 
to lose their benefits; as many as 66 percent of employers, 
according to your analysis, will lose their grandfathered 
status.
    Do you think administration would support my employee 
Health Care Protection Act which would allow workers to keep 
their group health care plan they have now in 2014 and beyond?
    Ms. Sebelius. Sir, as you know, the snapshot is not our 
office estimating anything. It was a description of the 
turnover that existed prior to 2010 in the individual and small 
group market, those statistics that you cited. And I think in, 
again, the small group market, there are lots of plans that are 
grandfathered, there are other plans that are offering 
transition in early renewals, and we are watching that every 
day.
    Mr. Cassidy. Can I get an answer to my question? Will the 
administration approve the same law that is given for the 
individual that if a small business wishes to keep their 
policy, they would be allowed to do so?
    Ms. Sebelius. The President's suggestion about a 
transitional policy applies to both the individual and the 
small group.
    Mr. Cassidy. Beyond 2014?
    Mr. Pitts. The gentleman's time is expired.
    The Chair recognizes Mr. Engel from New York 2 minutes for 
questions.
    Mr. Engel. Thank you, Mr. Chairman. I just want to say that 
New York is a good example of what is possible when the Federal 
Government has a willing and enthusiastic partner in ACA 
implementation. And we have set up our own exchange, we have 
hospitals participating in the various delivery system reform. 
Our Medicaid program is expanding. States that have fought to 
make the law work for their citizens like New York are finding 
success.
    Secretary Sebelius, I would like to know what your 
experience has been in States that have obstructed efforts, 
mainly Republican Governors, to implement the ACA compared to 
States that have adopted all of its measures? Are Americans 
experiencing an easier time obtaining affordable health care 
coverage in States that have their own exchange, and has the 
refusal of some States to expand Medicaid affected the rollout?
    Ms. Sebelius. Well, I think that, Congressman, what we are 
seeing every day is Governors actually considering the Medicaid 
expansion. Some, as you say, in New York, California, others 
adopted very early on. We were pleased yesterday that the 
Governor of Iowa indicated an interest in moving ahead on 
Medicaid expansion. That was not certain. The Governor of 
Pennsylvania recently also indicated his interest in doing the 
same. So we are working actively with States around the 
country.
    I think it is enormously difficult for consumers in States 
where there is no Medicaid expansion, they hear about the 
opportunity for affordable health coverage only to find out 
that they earn too less to qualify for a tax credit in the 
marketplace and really they have no viable option at all, and 
that I'm told by our navigators on the ground, our assisters, 
the people in community health centers is one of the worst 
conversations that they can have in this period.
    Mr. Engel. Well, we speak with the Governor of Kentucky the 
other day. And he explained to us Kentucky generally a 
Republican State, where it is working really, really well, 
where you have a Governor who is a partner who wants to see it 
work, it can work, and it should work. And I hope that more 
Governors would continue to do what is in the best interest of 
their constituents rather than playing political games. Thank 
you.
    Mr. Pitts. The Chair thanks the gentleman. I now recognize 
the gentleman from Kentucky, Mr. Guthrie.
    Mr. Guthrie. Thank you. You just mentioned Kentucky. Eighty 
percent of the people signing up on our exchanges are on 
Medicaid. And it has been a concern of mine, I was in State 
government before. And Medicaid as a national program has 72 
million people, and we are expecting an increase of 25 million 
over the next 10 years. And I do believe Medicaid is important 
for low income children, disabled, seniors that it was designed 
for, but do you believe Medicaid should be a program of last 
resort or has it become just its own insurance program as it is 
now?
    Ms. Sebelius. Sir, first of all, I think the enrollment 
numbers are about 51 million, not 72. But also Medicaid has 
played I think a critical role for lower income Americans not 
only offering a wide range of health benefits but at a lower 
cost per capita than private insurance and that Medicare.
    Mr. Guthrie. I actually don't want to be rude, but he has 
cut us down to a couple minutes so the question I want to get 
at though is your department has estimated that about 5 million 
Americans who have previously purchased insurance through their 
employer will move to Medicaid, and that is from the Office of 
OACT, the Office of Actuary, it is the number we got. And are 
you familiar with that, that we are looking at, over the next 4 
years estimates of 5 million Americans who have employer-based 
insurance will move to Medicaid?
    Ms. Sebelius. I am not aware of that. The Office of Actuary 
really is an independent office, but I can check into that.
    Mr. Guthrie. It is a part of CMS.
    Ms. Sebelius. I'm not familiar with that specific number.
    Mr. Guthrie. That is just a concern because the estimate is 
it would be $20 billion in this group of people who previously 
purchased health insurance through their employer who will be 
moving into Medicaid because of the Affordable Care Act.
    The question that Chairman Upton had about income, there is 
a question with Chairman Upton about income verification and 
residency verification. I know that is up to the States to do, 
but the States who don't expand Medicaid, the information right 
now, is it just trust the Federal Government's numbers, right? 
Right now that is what they are being asked to do right now?
    Ms. Sebelius. Again, sir, we don't enroll anyone in 
Medicaid. What we do is look at income eligibility, and based 
on the State law, send that individual's name and the 
information that has been collected to the State. The State 
actually is the connection between the individual and Medicaid. 
Not the Federal Government.
    Mr. Guthrie. But because of timing by the January 1st, they 
are going to have to just accept it.
    Ms. Sebelius. Yes, and that is going on right now. The 
process. But we don't enroll in Medicaid we just----
    Mr. Guthrie. But they have to take your data.
    Mr. Pitts. The gentleman's time has expired. Thank you, 
Madam Secretary. The Chair recognizes Mr. Griffith 2 minutes 
for questions.
    Mr. Griffith. Thank you, Mr. Chairman. Secretary Sebelius 
let me just let you know that I agree with Representative 
Leonard Lance's legal reasoning on the matters that he brought 
up earlier in his testimony. I do find it interesting that when 
we're listening to my colleagues on the other side of the aisle 
when they talk about scare tactics, this is similar to what 
they said back in the summer and in September, when we were 
holding hearings because we were hearing that the plan wouldn't 
be ready on October 1, and so I am just concerned that we are 
going to have some of that same kind of thing now that we are 
being attacked for asking questions. We are just trying to get 
the information. And it is not that we are interested in scare 
tactics or witch hunts, it is a matter of we are trying to get 
to the bottom of a lot of these problems that we are concerned 
about out there.
    And obviously one of the tactics they said, well, this is 
all just political but you certainly have accepted 
responsibility and you don't believe that we caused the 
problems with the Web site, therefore making the public 
distrust it, isn't that correct?
    Ms. Sebelius. I do not believe you caused the problems with 
the Web site, sir.
    Mr. Griffith. Thank you. Some of my colleagues implied 
maybe not that you, but somehow we are responsible for all of 
that distrust out there and I don't think that is accurate.
    Also I don't believe that the Federal Employee Health 
Benefit plan is a skimpy plan. Some of the folks said that the 
reason that costs were going up is that people had skimpy 
plans. Well, I was previously on the Federal Employee Health 
Benefit plan, and my family is facing 117 percent increase out 
of our pocket, that is out of our pocket increase, to go on to 
the exchange here in DC, and so you don't think the plan you 
have is skimpy do you?
    Ms. Sebelius. No, sir, I don't but as you know----
    Mr. Griffith. And you prefer to stay on that plan, don't 
you?
    Ms. Sebelius. The new marketplace plan have some age rating 
that the Federal Employee Health Benefit program did not so you 
are going to see younger employees paying a lot less and older 
employees paying more.
    Mr. Griffith. That is one of the reasons--I'm running out 
of time. Let me say this, too, in regard to Medicaid. One of 
the problems that you are having is you are sending people to 
the States based on income alone. And in Virginia, most States 
they have an asset amount. In Virginia, it is only $2,000. So 
they may have sufficient income to--they may not have enough 
income but they qualify for Medicaid under income, but they 
don't qualify for Medicaid because they own a house. And I 
asked some experts on this previously and they said they have 
to choose whether they want their asset or whether they want 
the Medicaid.
    Ms. Sebelius. Again, the State law and the State Medicaid 
enrollment officials will make the determination of whether 
that individual will be enrolled. When they present at the 
marketplace, based on 133 percent or less and in Virginia right 
now it would be based on a lot less because Virginia has not 
raised their Medicaid eligibility.
    Mr. Pitts. Thank you, Madam Secretary.
    Ms. Sebelius. We would make a determination and refer that 
name, and they make that----
    Mr. Pitts. The Chair recognizes the gentleman from Georgia, 
Dr. Gingrey, 2 minutes.
    Mr. Gingrey. Madam Secretary, I want to begin the question 
about the Medicaid program. My Governor, Nathan Deal of Georgia 
particularly wants an answer to this question and I am sure all 
the other 49 Governors would too. The American Affordable Care 
Act force States, they force States to retain the eligibility 
requirements of Medicaid through the maintenance of effort 
provision going back to 2009.
    With the expiration of these provisions, States will 
finally have the flexibility to tailor their Medicaid program 
to best address the health care needs of their Medicaid 
populations.
    Now, this is the question. Will the Medicaid MOE, 
maintenance about to expire, for all States beginning on 
January 1, 2014?
    Ms. Sebelius. Yes, sir.
    Mr. Gingrey. Thank you. Madam Secretary, I want to ask you 
real quickly. In regard to eHealth plans, this company, 
California-based company, I think, 10 years old, we talked 
about it earlier in the discussion, I think they spent about 
$100 million developing their program allowing people to go 
onto their Web site and find plans, and yet we spent seven 
times that much reinventing the wheel.
    Can you tell me why we didn't just use that technology or 
maybe some other Silicon Valley company to have a public-
private partnership rather than starting over from scratch? And 
who made that decision?
    Ms. Sebelius. Well, sir, I would tell you that while there 
are some comparisons with the eHealth situation, there are a 
number of features very different in the Federal Web site that 
were required eHealth doesn't determine citizenship 
eligibility, it doesn't identify the Social Security number. It 
doesn't----
    Mr. Gingrey. But did you make that decision or was that 
made by someone else?
    Ms. Sebelius. What decision, sir?
    Mr. Gingrey. The decision to start over from scratch.
    Ms. Sebelius. Well, I don't think they did start over from 
scratch. They actually, I think, along the way, adopted a 
number of the known technologies that were in place----
    Mr. Gingrey. Let me ask you finally, I don't want to run 
out of time, how many times did you actually visit with the 
President since 2009 or 2010 when you came on board? How many 
personal visits did you have with him at the White House 
regarding the Affordable Care Act?
    Ms. Sebelius. A lot.
    Mr. Gingrey. Can you verify that?
    Ms. Sebelius. Yes.
    Mr. Pitts. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Florida, Mr. Bilirakis, 2 minutes 
for questioning.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it. 
Thanks for holding this hearing.
    Madam Secretary, in a proposed rule in November, CMS 
announced that they were considering increasing payments to 
insurance companies with sicker than average customers through 
the risk corridor program under section 1342 of the ACA. This 
program is supposed to be financed by insurance companies 
participating in the Exchange, but the proposal appears to put 
taxpayers on the hook. Specifically the rule states that, and I 
quote, ``This proposed adjustment may increase the total amount 
of risk corridors payments that the Federal Government will 
make ,,, [and] reduce the amount of risk corridors receipts 
...''
    Did you, Madam Secretary, estimate how much more money 
taxpayers would have to pay to insurance companies under this 
proposed rule?
    Ms. Sebelius. Sir, the risk corridor has always been a part 
of the Affordable Care Act and was anticipated for the first 
couple of years to be used for reinsurance and risk corridors 
for the new marketplaces. So we did put out a proposed rule. We 
talked about the fact that we would look carefully at what the 
enrollment is at the end of 2014 in order to determine going 
forward.
    Mr. Bilirakis. Madam Secretary, did you estimate how much 
money----
    Ms. Sebelius. We won't know anything about what that risk 
corridor looks like until we get more enrollment numbers.
    Mr. Bilirakis. OK. The rule says, and I quote, ``We cannot 
estimate the magnitude of this impact on aggregate risk 
corridors payments and charges at this time.'' I would like to 
get to the next question.
    Do you think it is responsible to put taxpayers on the hook 
for insurance companies' losses in the Exchange? Do you think 
it is responsible to make these payments without even 
estimating the cost?
    Ms. Sebelius. Again, sir, it will be based on what the risk 
pool looks like. We always knew that in the first couple of 
years, the market would be attracting some customers and not 
attracting others and that there would be some risk in what we 
are hopeful for as the Affordable Care Act continues into 
maturity is that we have mature pools. We knew the first years 
would need this kind of risk adjustment.
    Mr. Pitts. The Chair thanks the gentlelady and now 
recognizes Mrs. Ellmers, 2 minutes for questions.
    Mrs. Ellmers. Thank you Mr. Chairman. Thank you, Madam 
Secretary, for being with us.
    I have some specific questions to ask about some of the--
essentially the promises that the President made to the 
American people as he was rolling out the idea of the 
Affordable Care Act. One of those promises being, if you like 
your doctor, you can keep your doctor, period.
    Can you commit to the American people today that this is 
true and that they will be able to keep their doctor?
    Ms. Sebelius. Congresswoman, I think that, as you well 
know, in the private market, networks change on a constant 
basis. The President is not overtaking the private health 
insurance market. There is----
    Mrs. Ellmers. You are absolutely right, but the promise 
that was made to the American people so that this piece of 
legislation, which is now law, was passed was that they would 
be able to keep their doctor, yes or no?
    Ms. Sebelius. Again, most consumers will have the 
opportunity to pick and choose a network that continues their 
doctor. There is nothing in the law that has their doctor lost 
to them.
    Mrs. Ellmers. There is nothing in the law. But there are 
networks that are now very narrowed as a result of the law, is 
that not true?
    Ms. Sebelius. Insurance companies make network decisions 
day in and day out. Any insurance company----
    Mrs. Ellmers. That is not the promise that the President 
made. Did the President not make that promise to the American 
people?
    Ms. Sebelius. This is the private insurance market that 
changes networks on basically a daily basis.
    Mrs. Ellmers. Then why in the world, Madam Secretary, did 
the President make that promise to the American people?
    Ms. Sebelius. I think the President was trying to assure 
people that the law did not require them to lose their doctor. 
They have a network to choose from----
    Mrs. Ellmers. No, I don't believe that he was reassuring 
the American people that they would not lose their doctor. I 
think he was reassuring the American people that if this law 
passed, that they would be able to keep their doctor. So 
therefore today you are basically saying no, that this is not 
the case.
    Ms. Sebelius. I am saying that there is, again, this is the 
private insurance market where insurance companies develop 
networks and change them on a regular basis----
    Mrs. Ellmers. And the American people would be able to keep 
their doctor if they pay more, according to Ezekiel Emanuel.
    Ms. Sebelius. They can choose a network where their doctor 
is available----
    Mrs. Ellmers. And pay more?
    Ms. Sebelius. They can choose a plan where their doctor is 
not available based on the kind of premium, the kind of 
deductible, the kind of situation they have. They have a 
choice.
    Mrs. Ellmers. I see my time has expired so thank you, Madam 
Secretary.
    Mr. Pitts. The Chair thanks the gentlelady.
    That concludes our questioning at the present. Madam 
Secretary, we will have some follow-up questions we will send 
to you. We ask that you please respond promptly.
    We have a couple of unanimous consent requests.
    I would like unanimous consent to submit to the record a 
letter from Dr. Julie Welch, an emergency medicine physician 
and educator from Indianapolis. Without objection, so ordered.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Pitts. Dr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman. Dr. Gingrey 
referenced an offer from eHealth to the President to provide a 
platform for the market exchange, and I would like to submit 
his letter for the record, and I will make this part of a 
question for the record that I will do in follow up.
    Mr. Pitts. Without objection, so ordered.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Pitts. Ranking member has a unanimous consent request.
    Mr. Pallone. One is from my constituent in Piscataway, 
Anthony Wiehl, that I referenced. Another is the one that Ms. 
Schakowsky referenced. These are the different individuals 
impacted by the ACA.
    Mr. Pitts. Without objection.
    Mr. Pallone. And then there is a third one from Ms. 
Schakowsky.
    Mr. Pitts. Without objection, so ordered.
    Thank you, Madam Secretary, for your patience for 
responding to all of our questions. I remind members they have 
10 business days to submit questions for the record, and that 
means they should submit their questions by the close of 
business on Tuesday, December 31st. Another important hearing. 
Thank you, Madam Secretary, for your indulgence. Without 
objection, the subcommittee is adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
